                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




            AGREED-UPON PROCEDURES FOR CORPORATION
               FOR NATIONAL AND COMMUNITY SERVICE
              GRANTS AWARDED TO Oregon Volunteers

                              OIG Report 12-13




                         Prepared by:

                 COTTON & COMPANY LLP
                  635 Slaters Lane, 4th Floor
                  Alexandria, Virginia 22314




This report was issued to Corporation management on August 15, 2012. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
February 15, 2013 and complete its corrective actions by August 15, 2013.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                   Office of Inspector General


                                 NATIONAL
                                 COMMUNITY
                                          &
                                 SERVICEtt1i

                                        August 15, 2012



TO:            William Basi
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Stuart Axenfeld
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 12-13, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Oregon Volunteers (OV)


Attached is the final report for the above-noted engagement. This agreed-upon procedure
engagement was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards, issued
by the Comptroller General of the United States.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by February 15, 2013. Notice of final action is due by August 15, 2013.

If you have questions pertaining to. this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment



cc:     Mike Fieldman, Commission Co-Chair, OV
        Kathleen Joy, Executive Director, OV
        Tim Foley, Program Officer, OV
        David Rebich, CFO, CNCS
        Claire Moreno, Audit Liaison, CNCS
        Karen Gandolfo, Audit Resolution Specialist, CNCS
        Michael Gillespie, Partner, Cotton & Company LLP
                                   OFFICE OF INSPECTOR GENERAL
                                  AGREED-UPON PROCEDURES FOR
                          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                       GRANTS AWARDED TO
                                       OREGON VOLUNTEERS


                                                            CONTENTS


   Section                                                                                                                     Page

   Executive Summary........................................................................................................    1

   Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                    6

   Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                9

   Schedule A: Schedule of Claimed and Questioned Costs,
               Oregon Department of Human Services. ................................................... 10

   Schedule B: Schedule of Claimed and Questioned Costs
               Northwest Youth Corps .............................................................................. 11

   Schedule C: Schedule of Claimed and Questioned Costs
               American Red Cross Oregon Trail Chapter................................................ 12

   Schedule D: Schedule of Claimed and Questioned Costs
               Commission Level Awards......................................................................... 13

   Exhibit B: Compliance Results ....................................................................................... 14

   Appendices

   A: Oregon Volunteers Response to Draft Report
   B: Corporation for National and Community Service’s Response to Draft Report


                                               EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures
(AUPs) to assist the OIG in grant cost and compliance testing of Corporation-funded Federal
assistance provided to Oregon Commission for Voluntary Action and Service (Oregon
Volunteers).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of $391,604,
education awards of $158,153, accrued interest of $10,025, and childcare benefits of $348.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards, and in some cases, repayment of student-loan interest accrued during
    4.
their service terms (accrued interest) funded by the Corporation’s National Service Trust.
During their term of service AmeriCorps members may also be eligible for childcare benefits
funded by the Corporation but the benefits are not part of the grant funds. Based on the same
criteria used for the grantee’s claimed costs, we determined the effect of our findings on
eligibility for education and accrued-interest awards and childcare benefits. Detailed results of
our AUP on claimed costs are in Exhibit A, Consolidated Schedule of Claimed and Questioned
Costs, and the supporting schedules.

Our observations during fieldwork revealed deficiencies in several facets of the program.

      As discussed in Finding 1, Oregon Volunteers claimed unallowable Federal and
       match costs, including:

       o   Insufficiently documented Federal costs for a mini-grant awarded to an
           organization. Oregon Volunteers did not provide supporting documentation for
           labor costs or invoices for expenses incurred.

       o   Indirect costs for Portland State University (PSU) claimed as Federal costs on its
           Professional Development and Training (PDAT) and Disability grants and as
           indirect match costs for its PDAT and Disability grants on its Administrative
           grant. Application instructions for Administrative, PDAT, and Disability grants
           stated, however, that indirect costs claimed for the PDAT and Disability grants
           are generally unallowable.

       o   PSU indirect costs claimed as match costs on its Administrative grant, using a
           rate of 46.5 percent. PSU’s Negotiated Indirect Cost Rate Agreements with the
           Federal government and Office of Management and Budget (OMB) Circular A-
           21, Cost Principles for Educational Institutions, supported a lower rate.

       o   Oregon Volunteers erroneously claimed revenue received, rather than actual
           expenses as match expenditures on its FFR. It provided documentation for the
           sources of revenue received but did not provide any documentation to support
           actual expenditures.

      As discussed in Findings 2, 3, and 4, Oregon Volunteers subgrantees claimed
       unsupported, unallocable, and unallowable Federal and match costs. Two
       subgrantees claimed Federal and match costs incurred at the end of the program
       year and after members were exited from the program. Three subgrantees could not
       provide source documentation to support the amounts allocated as Federal and
       match costs. One subgrantee claimed rent costs for its member service sites but did
       not provide documentation to support to the actual amount of rent costs at these
       sites. One subgrantee claimed salaries and benefits for supervisors at its member
       service sites but did not provide all site supervisor timesheets, did not adequately
       document salary and benefit costs at one service site, claimed estimated costs, and
       claimed costs for the wrong program year.

       Our interaction with the Commission’s management revealed a lack of understanding
       of cost principles, grant provisions and general grant accounting guidelines.
       Consequently, the Commission’s management failed to properly monitor the fiscal
       activities of its subgrantees. Several subgrantees were unaware of grant provisions

                                              2
       and laws and regulations, and were provided incorrect guidance from the
       Commission.

      As discussed in Findings 5 and 6, Oregon Volunteers subgrantees did not comply
       with Corporation requirements for National Service Criminal History Checks. Two
       subgrantees conducted state criminal registry checks on members and grant-funded
       staff using third party vendors. These vendors did not check the state criminal
       registries recognized by the Corporation. Three subgrantees conducted incomplete
       National Sex Offender Public Registry (NSOPR) checks, two subgrantees retained
       undated copies of NSOPR checks, and two subgrantees conducted NSOPR checks
       after members and grant-funded staff started serving and working. Two subgrantees
       did not provide documentation to demonstrate that NSOPR checks were conducted
       on certain members and grant-funded staff.

Detailed results for grant compliance, along with applicable recommendations, are discussed in
Exhibit B, Compliance Results. The following is a summary of grant compliance testing results.

1. Oregon Volunteers did not ensure that claimed Federal and match costs were adequately
   supported, compliant with applicable regulations, and properly calculated.

2. Subgrantees did not ensure that claimed Federal costs were adequately supported,
   compliant with applicable regulations, and properly calculated.

3. Subgrantees did not ensure that claimed match costs were adequately supported,
   compliant with applicable regulations, and properly calculated.

4. Subgrantees timekeeping systems did not comply with Federal and state requirements, and
   subgrantees did not ensure the allowability of claimed site-supervisor labor costs.

5. Subgrantees did not comply with AmeriCorps requirements for state criminal history checks
   and did not demonstrate that such checks were conducted on members and grant-funded
   staff.

6. Subgrantees did not comply with AmeriCorps requirements for NSOPR checks, did not
   demonstrate that NSOPR checks were conducted on members and grant-funded staff, and
   did not conduct NSOPR checks in a timely manner.

7. Subgrantees did not accurately record all member timesheet hours, did not have procedures
   to verify timesheet accuracy, and, in some instances, the timesheets did not support
   member eligibility for education awards.

8. Subgrantees did not comply with AmeriCorps requirements for member performance
   evaluations, contracts, and forms.

9. Oregon Volunteers did not obtain and review subgrantee OMB Circular A-133 audit reports,
   as required by its procedures.

AGREED-UPON PROCEDURES SCOPE

We performed the AUPs detailed in the OIG’s Agreed-Upon Procedures for Corporation Awards
to Grantees (including Subgrantees) program, dated July 2011. Our procedures covered testing
                                             3
the following grants: AmeriCorps Formula, Competitive, American Recovery and Reinvestment
Act (ARRA) Competitive, ARRA Formula, and Fixed Amount; and Commission-Level
Administrative, Disability, and PDAT.

                                                                                       Award
   Grant Program           Award No.         Award Period         AUP Period           Totals
   AmeriCorps Grants
   Formula                06AFHOR001       08/16/06-12/31/12    08/16/09-09/30/11   $7,065,047
   Competitive            09ACHOR001       08/24/09-12/07/12    08/24/09-09/30/11   $3,094,411
   ARRA-Competitive       09RCHOR002       07/01/09-12/31/10    07/01/09-12/31/10    $406,749
   ARRA-Formula           09RFHOR001       05/01/09-09/30/10    05/01/09-09/30/10    $366,326
   Fixed Amount           10FXHOR001       08/02/10-08/01/13    08/02/10-09/30/11    $461,863
   Commission-Level Grants
   Administrative     09CAHOR001           01/01/09-12/31/11    07/01/09-06/30/11     $778,510
   Disability         09CDHOR001           01/01/09-12/31/11    07/01/09-06/30/11     $208,688
   PDAT               09PTHOR001           01/01/09-12/31/11    07/01/09-06/30/11     $297,568

OIG’s AUP program included:

      Obtaining an understanding of Oregon Volunteers’ operations, programs, and
       subgrantee monitoring processes.

      Reconciling Oregon Volunteers’ and a sample of subgrantees’ claimed Federal and
       match grant costs to its accounting system.

      Testing subgrantee member files to verify that records supported eligibility to serve,
       allowability of living allowances, and eligibility to receive education awards.

      Testing Oregon Volunteers’ and a sample of subgrantees’ compliance with selected
       AmeriCorps provisions and award terms and conditions.

      Testing Oregon Volunteers’ claimed Federal and match grant costs and a sample of
       subgrantees’ to ensure that:

          AmeriCorps grants were properly recorded in Oregon Volunteers’ general ledger
           and subgrantee records.

          Costs were allowable and properly documented in accordance with applicable
           OMB circulars, grant provisions, award terms, and conditions.

We performed testing from November 2011 through February 2012 at the Oregon Volunteers
office in Portland and three subgrantees:

      Oregon Department of Human Services (DHS), Salem, Oregon
      American Red Cross, Oregon Trail Chapter (ARC), Portland, Oregon
      Northwest Youth Corps (NYC), Eugene, Oregon




                                              4
BACKGROUND

The Corporation

The Corporation supports national and community service programs that provide an
opportunity for participants to engage in full- or part-time service. The Corporation funds
service opportunities that foster civic responsibility and strengthen communities. It also
provides educational opportunities for those who have made a commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Learn & Serve America. For fiscal 2011, Congress did not fund the Learn
& Serve America program and the Corporation does not anticipate that additional funding
will be enacted in the future. Grant activity previously funded under the Learn & Serve
America program will continue through fiscal 2013. AmeriCorps, the largest of the initiatives,
is funded through grants to states and territories with State Commissions on community
service, grants to states and territories without State Commissions, and National Direct
funding to organizations. Grantees recruit and select volunteers who must meet certain
qualifications to earn a living allowance and/or education awards.

Oregon Volunteers

Oregon Volunteers was established 1994 in accordance with the Federal National and
Community Service Trust Act of 1993. It has been considered a program within the Oregon
Department of Housing and Community Services (OHCS) since July 2000. Oregon
Volunteers receives multiple grant awards from the Corporation, including, but not limited to,
the awards listed in the Agreed-Upon Procedures Scope section above. AmeriCorps grants
are annual awards passed through Oregon Volunteers to eligible subgrantees that recruit
members to serve, who then earn living allowances and education awards.

Oregon Volunteers is responsible for implementing the AmeriCorps program, monitoring
subgrantees and ensuring grant compliance. OCHS’ Financial Services Section is
responsible for drawing Federal funds and disbursing funds to Oregon Volunteers
subgrantees. It handles financial accounting, including payroll and travel, for the two state-
funded positions at Oregon Volunteers and all other expenses such as Commissioner travel.

The Commission is located at Portland State University (PSU). In addition to housing the
Commission, PSU funds two full-time and one part-time staff positions at Oregon
Volunteers. PSU also handles financial accounting for payroll and travel expenses of the
positions it funds and all other expenses originated by Oregon Volunteers.

Oregon Department of Human Services

DHS uses AmeriCorps Formula funding to operate the AmeriCorps Healthy Options through
Prevention and Education program. Its members serve statewide and work with youth and
families to promote positive youth development and healthy relationships. Its members also
help teens increase their skills and knowledge to cope with teen issues, reduce risk
behaviors, strengthen families, and increase awareness about preventing domestic violence
and assault.

American Red Cross, Oregon Trail Chapter

                                               5
ARC uses AmeriCorps Competitive funding and ARRA Competitive funding to operate the
Oregon State Service Corps. Its members serve statewide at nonprofit organizations,
government agencies, and schools. The members address community needs in education,
public safety, homeland security, health and other human needs, and volunteer generation.


Northwest Youth Corps

NYC uses AmeriCorps Formula funding to operate the Developing Youth Engaging
Communities AmeriCorps program. Members serve at several sites: NYC Outdoor School,
an alternative high school, the summer garden, or a rural Lane County school. NYC is also
a subgrantee of The Corps Network.

EXIT CONFERENCE

The contents of this report were discussed with Oregon Volunteers and Corporation
representatives on May 14, 2012. We summarized Oregon Volunteers’ comments in the
appropriate sections of the final report and included their comments verbatim as Appendix
A. The Corporation intends to respond to all findings and recommendations in its
management decision at a later date (see Appendix B).




                                             6
August 15, 2012


Office of Inspector General
Corporation for National and Community Service

                           INDEPENDENT ACCOUNTANTS’ REPORT ON
                            APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees) program, dated July
2011. These procedures were agreed to by the OIG solely to assist it in grant cost and
compliance testing of Corporation-funded Federal assistance provided to Oregon Volunteers for
the awards detailed below.

This AUP engagement was performed in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures, either for
the purpose for which this report has been requested or any other purpose.

Our procedures covered testing of the following awards:

                                                                                     Award
   Grant Program           Award No.        Award Period         AUP Period          Totals
   AmeriCorps Grants
   Formula               06AFHOR001       08/16/06-12/31/12   08/16/09-09/30/11   $7,065,047
   Competitive           09ACHOR001       08/24/09-12/07/12   08/24/09-09/30/11   $3,094,411
   ARRA-Competitive      09RCHOR002       07/01/09-12/31/10   07/01/09-12/31/10    $406,749
   ARRA-Formula          09RFHOR001       05/01/09-09/30/10   05/01/09-09/30/10    $366,326
   Fixed Amount          10FXHOR001       08/02/10-08/01/13   08/02/10-09/30/11    $461,863
   Commission-Level Grants
   Administrative     09CAHOR001          01/01/09-12/31/11   07/01/09-06/30/11     $778,510
   Disability         09CDHOR001          01/01/09-12/31/11   07/01/09-06/30/11     $208,688
   PDAT               09PTHOR001          01/01/09-12/31/11   07/01/09-06/30/11     $297,568

We performed testing of these AmeriCorps program awards at Oregon Volunteers and three
of its subgrantees. We selected samples of labor, benefits, and other direct costs at Oregon
Volunteers and the three subgrantees reported by Oregon Volunteers on the following FFR:


                                             7
         2009
         September 30 and December 31

         2010
         March 31, June 30, September 30, and December 31

         2011
         March 31, June 30, and September 30

As requested by the OIG, we reviewed copies of certain sampled labor, benefits, and other
direct costs at ARC.

We also tested grant compliance requirements by sampling 50 members from DHS, ARC,
and NYC, as shown below. We performed all applicable testing procedures in the AUP
program for each sampled member.

                           DHS                     ARC                     NYC
                     Total    Sampled        Total    Sampled        Total    Sampled
                    Members Members         Members Members         Members Members
   PY 2009-2010        26        5             51        9            21         7
   ARRA                 0        0             31        7             0         0
   PY 2010-2011        28        6             65        9            23         7
   Total               54       11            147       25            44        14


RESULTS OF AGREED-UPON PROCEDURES

We questioned claimed Federal-share costs of $391,604.

Participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and, in some cases, accrued interest funded by the
Corporation’s National Service Trust. During their term of service, AmeriCorps members
may also be eligible for childcare benefits funded by the Corporation however the benefits
are not part of the grant funds. As part of our AUP, and using the same criteria as claimed
costs, we determined the effect of our findings on education awards, accrued interest, and
childcare benefits. We questioned education awards of $158,153, accrued interest of
$10,025, and childcare benefits of $348.

Detailed results of our AUPs on claimed costs are in Exhibit A and the supporting
schedules. Results of testing grant compliance are in Exhibit B.

We were not engaged to and did not perform an examination, the objective of which would
be expression of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed other procedures, other matters might have come to our
attention that would have been reported.




                                              8
This report is intended solely for the information and use of the OIG, Corporation, Oregon
Volunteers, and U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                            9
                                                                                EXHIBIT A
                              OREGON VOLUNTEERS
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
             CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                   Federal Costs                      Questioned
                                                   Education Accrued Childcare
Grant No.      Awarded      Claimed       Costs     Awards    Interest Benefits Schedule
06AFHOR001
   DHS          $630,554     $603,883    $56,021    $39,050    $3,555   $348         A
   NYC           455,123      428,586     88,698     39,351     3,157      0         B
   Others      5,979,370    1,263,814          0          0         0      0
Total         $7,065,047   $2,296,283   $144,719    $78,401    $6,712   $348
09ACHOR001
   ARC        $1,345,106   $1,287,708   $202,317    $68,293    $3,268      $0        C
   Others      1,749,305      600,463          0          0         0       0
Total         $3,094,411   $1,888,171   $202,317    $68,293    $3,268      $0
09RCHOR002
   ARC         $317,815     $301,806     $28,853    $11,459      $45       $0        C
   Others        88,934       84,284           0          0        0        0
Total          $406,749     $386,090     $28,853    $11,459      $45       $0
09RFHOR001     $366,326     $366,326          $0         $0       $0       $0
10FXHOR001     $461,863     $452,688          $0         $0       $0       $0
09CAHOR001     $778,510     $490,124      $2,500         $0       $0       $0        D
09CDHOR001     $208,688     $121,261     $11,171         $0       $0       $0        D
09PTHOR001     $297,568     $193,244      $2,044        $0        $0       $0        D
Totals                                  $391,604   $158,153   $10,025   $348




                                           10
                                                                      SCHEDULE A

                              OREGON VOLUNTEERS

              SCHEDULE OF CLAIMED AND QUESTIONED COSTS
               OREGON DEPARTMENT OF HUMAN SERVICES
                      AWARD NO. 06AFHOR001

                                                             Exhibit B
                                                   Amount     Finding
Total Claimed Federal Costs                       $603,883
Questioned Federal Costs:
  Returning Member Without Prior-Year Final
  Evaluation                                       $21,076      8.a
  NSOPR Check Not Nationwide                        18,766      6.a
  State Criminal History Check Missing              10,803      5.c
  Unsupported Labor Costs                            4,188      4.a
  Unsupported Costs                                  1,188      2.a
  Total Questioned Federal Costs                   $56,021
Questioned Education Awards:
  Returning Member Without Prior-Year
  Evaluation                                       $10,075      8.a
  NSOPR Check Not Nationwide                             0      6.a
  State Criminal History Check Missing               5,350      5.c
  Total Service Hours                               23,625      7.a
  Total Questioned Education Awards                $39,050
Questioned Accrued Interest

   State Criminal History Check Missing             $2,589      5.c
   Returning Member Without Prior-Year
   Evaluation                                          966      8.a
   Total Questioned Accrued Interest                $3,555
Questioned Childcare Benefits
   Returning Member Without Prior-Year
   Evaluation                                        $348       8.a




                                      11
                                                                    SCHEDULE B

                             OREGON VOLUNTEERS

                SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                        NORTHWEST YOUTH CORPS
                        AWARD NO. 06AFHOR001

                                                           Exhibit B
                                                Amount      Finding
Claimed Federal Costs                          $428,586
Questioned Federal Costs:
  Third Party Vendor Criminal History Checks    $43,159       5.b
  State Criminal History Check Missing           37,697       5.b
  NSOPR Check Not Nationwide                      2,889       6.c
  Unsupported Other Direct Costs                    521       2.c
  NSOPR Check Missing                                 0       6.c
  Administrative Costs                            4,432       2.c
  Total Questioned Federal Costs                $88,698
Questioned Education Awards:
  Third Party Vendor Criminal History Checks    $17,163       5.b
  State Criminal History Check Missing           14,800       5.b
   NSOPR Check Not Nationwide                     2,038       6.c
   NSOPR Check Missing                                0       6.c
   Total Service Hours                            5,350       7.c
   Total Questioned Education Awards            $39,351

Questioned Accrued Interest
  Third Party Vendor Criminal History Checks       $925       5.b
  State Criminal History Check Missing            2,232       5.b
  Total Questioned Accrued Interest              $3,157




                                       12
                                                                           SCHEDULE C

                                        OREGON VOLUNTEERS

                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                        AMERICAN RED CROSS OREGON TRAIL CHAPTER
                                AWARD NO. 09ACHOR001
                                 AWARD NO. 09RCHOR002

                                                               Award No.
                                               Award No.      09RCHOR002   Exhibit B
                                              09ACHOR001         (ARRA)    Findings
Claimed Federal Costs                          $1,287,708       $301,806
Questioned Federal Costs:
  Third Party Vendor
  Criminal History Checks                       $150,629        $26,867       5.a
  Late NSOPR for staff member                     27,982              0       6.b
  Third Party Vendor
  Criminal History Check                               0              0       5.a
  Unsupported Costs                                9,300            269       2.b
  Unallocable Costs                                4,296              0       2.b
  Excess Lodging Costs                                 0             38       2.b
  NSOPRs Not Nationwide                                0              0       6.b
  Unallowable Administrative Costs                10,110          1,429       2.b
  Excess Administrative Costs                          0            250       2.b
  Total Questioned Federal Costs                $202,317        $28,853
Questioned Education Awards:
  Third Party Vendor Criminal History
  Checks                                            $68,293     $10,459       5.a
  Incomplete NSOPR                                        0       1,000       6.b
   Unsigned Timesheets                                    0           0       7.b
   Total Questioned Education Awards                $68,293     $11,459
Questioned Accrued Interest
   Third Party Vendor
                                                     $3,268        $45        5.a
   Criminal History Checks




                                               13
                                                                       SCHEDULE D

                                OREGON VOLUNTEERS

                   SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                          COMMISSION LEVEL AWARDS

                                                              Exhibit B
                                                    Amount     Finding
Award No. 09CAHOR001
Claimed Federal Costs                            $490,124
Questioned Federal Costs                             $2,500      1.a
Claimed Match Costs                              $530,030
Questioned Match Costs
  Contracts, Conference Registration Fees, and
  Cash Donations                                  $73,446        1.d
  Excess PSU Indirect Costs                        54,586        1.c
  PSU Indirect Costs for Disability Grant          22,843        1.b
  PSU Indirect Costs for PDAT Grant                13,057        1.b
  Total Questioned Match Costs                   $163,932


Award No. 09CDOR001
Claimed Federal Costs                            $121,261
Questioned Federal Costs
  Unallowable Indirect costs                        $11,171      1.b

Award No. 09PTHOR001
Claimed Federal Costs                            $193,244

Questioned Federal Costs
   Unallowable Indirect costs                        $2,044      1.b




                                         14
                                                                                   EXHIBIT B

                               OREGON VOLUNTEERS
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                               COMPLIANCE RESULTS

Our AUPs identified the compliance findings described below.

Finding 1.    Oregon Volunteers did not ensure that claimed Federal and match costs
              were adequately supported, compliant with applicable regulations, and
              properly calculated.

a. We questioned $2,500 of unsupported Federal costs claimed by Oregon Volunteers on
   its Administrative grant.

   In February 2010, Oregon Volunteers claimed $2,500 for a “Take Care of Oregon” mini-
   grant awarded to the United Way of the Mid-Willamette Valley. To support these costs,
   Oregon Volunteers provided a copy of invoice from the United Way. According to the
   invoice description, the United Way incurred costs for coordinating training and
   distributing supplies. However, it did not provide supporting documentation for labor
   costs, and invoices for expenses incurred.

   OMB Circular A-87 Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment A. General Principles for Determining Allowable Costs, Subsection C.1,
   Factors affecting allowability of costs, states that an award cost must be adequately
   documented to be allowable.

b. We questioned $2,044 of Federal costs claimed on its PDAT grant, $11,171 of Federal
   costs claimed on its Disability grant, $13,057 of PDAT costs claimed as match on the
   Administrative grant, and $22,843 of Disability costs claimed as match on the
   Administrative grant. Details follow:

   Oregon Volunteers claimed indirect costs for PSU as Federal costs on its PDAT and
   Disability grants. It also claimed indirect costs for these two grants as match on its
   Administrative grants. Application instructions for Administrative, PDAT, and Disability
   grants stated, however, that indirect costs claimed for the PDAT and Disability grants are
   generally unallowable.

   The Corporation’s Administrative/PDAT/Disability Application Instructions, Section IX.
   Budget Instructions, Indirect costs, states:

       You may use your negotiated indirect cost rate for your Administrative budget, if
       you have one. In general, indirect costs cannot be charged to the PDAT and
       Disability grants. The Commission Administrative grant is intended to cover
       those costs.

   Oregon Volunteers representatives stated that indirect costs were allowable on the
   PDAT and Disability grants and cited Section VIII. Application Instructions, Paragraph D,
   which states:

                                             15
       State Commissions using a federally approved indirect cost rate in their
       Administrative, PDAT, and Disability budgets must submit a copy of their current
       approved indirect cost rate agreement to your grants officer when you submit
       your application.

   Oregon Volunteers representatives further stated that it was allowed to claim indirect
   costs on these awards because it had received Corporation approval. The Corporation’s
   Grants Officer for Oregon stated that these costs were allowable and provided a copy of
   a February 16, 2006 email between the Corporation and Oregon Volunteers that
   discussed claiming indirect costs on the PDAT grant. In the email, Corporation
   representatives stated:

       …w[W]e went back to determine if there are instances, in which states were
       allowed to claim indirect on the PDAT grant -- we have done it on occasions in
       which it was really clear how the indirect costs were applied. So, you can do it as
       long as you explain the application.

   We reviewed the grant year 2009, 2010, and 2011 PDAT and Disability budget sections
   of Oregon Volunteers budget narratives to the Corporation. Oregon Volunteers did not
   clearly identify indirect costs in the budgets:

      In the PDAT budget narratives, these costs were identified as accounting costs in the
       Other Support Costs (Category I) section of the budget narrative and the indirect
       costs section (Category J) of these budget narratives was blank.

      In the Disability budget narratives for all three years, costs were identified as
       accounting costs in Contractual and Consultant Services (Category F) section of the
       budget and the indirect costs section (Category J) of these budget narratives was
       blank.

   Oregon Volunteers representatives stated that the indirect costs section of the budget
   narratives were blank because the Corporation’s eGrants system did not permit them to
   enter information into this section.

   In addition, we reviewed the 2010 and 2011 PDAT and Disability grant applications to
   the Corporation. Indirect costs were not discussed in the 2010 Administrative and PDAT
   applications. In the 2010 and 2011 PDAT and Disability applications, the indirect costs
   were identified as accounting fees.

   We questioned Federal indirect costs claimed on the PDAT and Disability grants and
   PDAT and Disability match costs claimed on the Administrative grant, because:

      Application instructions stated that in general indirect costs could not be charged to
       the PDAT and Disability grants; and

      Oregon Volunteers did not fully disclose indirect costs in its budgets.

c. We questioned $54,586 of excess PSU indirect costs claimed by Oregon Volunteers as
   match on its Administrative grant.


                                              16
During the AUP period, Oregon Volunteers claimed PSU Federal and match indirect
costs on its Administrative grant. It calculated these costs using a total indirect cost rate
of 46.5 percent. It calculated the Federal share of PSU indirect costs by multiplying
PSU’s direct federal costs by a 15 percent indirect cost rate. These costs were included
on the invoice that PSU submitted to Oregon Volunteers, which then forwarded the
invoice to OCHS for payment. It calculated the match share of the PSU indirect costs by
multiplying PSU’s Direct Federal costs by an average indirect cost rate of 31.5 percent.

The 46.5-percent indirect cost rate is based on its January 2010 interagency agreement
between PSU and OCHS for the period January 2010 through December 2011. This
agreement covered costs incurred by PSU on the Administrative, PDAT, and Disability
grants. In the agreement, PSU agreed:

   To waive all but 15% of the 46.5% federally negotiated Indirect Cost that the
   UNIVERSITY normally charges to sponsored projects of this nature. OCHS may
   realize the value of this waiver at its own election up to the maximum allowable
   amount which is permitted by the federal government and OCHS’s federally
   sponsored agency to satisfy the matching requirement that is imposed to OCHS
   by its sponsoring agency.

We obtained a copy of PSU’s Negotiated Indirect Cost Rate Agreements with the
Federal government, dated October 12, 2006, and December 17, 2009. The October
2006 agreement showed predetermined rates in effect from July 2006 through June
2010. The December 2009 agreement showed predetermined rates in effect July 2010
through June 2012. We noted while reviewing the October 2006 agreement that the
46.5-percent indirect cost rate charged by PSU was the indirect cost rate agreed upon
for “Organized Research.” There were other rates identified for instruction and other
sponsored activities.

We asked Oregon Volunteers to define what activities PSU considered “organized
research,” “instruction,” and “other sponsored activities.” A PSU representative
responded to our question and stated that the definitions came from OMB Circular A-21,
Cost Principles for Educational Institutions. Corporation grants do not meet OMB
Circular A-21’s definition of “organized research.” Rather, Corporation grants meet the
definition of “other sponsored activities.”

OMB Circular A-21, Cost Principles for Educational Institutions, Attachment, Principles
for Determining Costs Applicable To Grants, Contracts, and Other Agreements With
Educational Institutions, Paragraph B.1.b, defines “organized research” as “all research
and development activities of an institution.” Further, “other sponsored activities” are
defined as “programs and projects financed by Federal and non-Federal agencies and
organizations, which involve performance of work other than instruction and organized
research. Examples of such programs and projects are health service projects and
community service programs.”

Because Corporation grants met the definition of “other sponsored activities,” and the
interagency agreement indicated that Corporation grants were sponsored projects, we
reviewed the PSU NICRAs to determine the rate for sponsored projects. The PSU rate
for sponsored projects was 31 percent. Therefore, we recalculated indirect costs using
31 percent. The match percentage is reduced to 16 percent from 31.5 percent, we
calculated unallowable match costs of $54,586.
                                           17
d. We questioned $73,446 of match expenses claimed by Oregon Volunteers on its
   Administrative grant. Oregon Volunteers erroneously claimed revenue received, rather
   than actual expenses as match expenditures on its FFR. It provided documentation for
   the sources of revenue received but did not provide any documentation to support actual
   expenditures. Oregon Volunteers representatives stated that this was its practice.

   According to 45 CFR § 2541.240(b)(6), Records, costs counting toward satisfying a cost
   sharing or matching requirement must be verifiable from the records of grantee.

   Further, OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
   Governments, Attachment A., Subsection C. Basic Guidelines,1. Factors Affecting
   Allowability of Costs, states that an award cost must be adequately documented to be
   allowable.

   We did not calculate the amount of Federal costs that would be questioned due to the
   questioned match costs, because Oregon Volunteer’s Administrative grant was still
   open.

Recommendations: We recommend that the Corporation:

   1a.    Instruct Oregon Volunteers to review applicable regulations and strengthen its
          procedures to ensure that claimed Federal and match costs are allowable,
          adequately documented, and allocable in accordance with applicable cost
          principles and regulations;

   1b.    Verify implementation of Oregon Volunteers’ strengthened policies and
          procedures for ensuring that claimed Federal and match costs are allowable,
          adequately documented, and allocable in accordance with applicable cost
          principles and regulations;

   1c.    Require Oregon Volunteers to provide documentation supporting allowable costs
          on project income and cash donations claimed by providing the Corporation with
          accounting reports and supporting documentation, such as invoices, timesheets,
          and payroll records;

   1d.    Require Oregon Volunteers to demonstrate that the correct indirect cost rate is
          charged to the grants;

   1e.    Calculate and recover the appropriate amount of disallowed costs based on our
          questioned costs and require Oregon Volunteers to adjust its FFRs for disallowed
          costs; and

   1f.    Calculate and recover indirect costs related to disallowed costs.

Oregon Volunteers Response: It did not concur with the findings and did not believe any
costs should be questioned. Its responses follow:




                                            18
Finding 1a.

         It noted this was a fixed-price mini-grant and it would provide expense
          documentation and the final report for the grant to the Corporation.

Finding 1b.

         It received permission from the Corporation Grants Office to include the costs in
          its annual applications submitted to the Corporation. Because the cells for
          indirect costs in the eGrants application budget narratives were locked, users
          were unable to add numbers to this line item. Therefore, the Corporation
          instructed Oregon Volunteers to show these costs as Other Support Costs in the
          budget narratives. In addition to the application, it annually submitted a copy of
          its contract with PSU, which identified the percentage of indirect costs charged to
          each grant and the percentage of indirect costs donated for each grant.

Finding 1c.

         Oregon Volunteers stated:

          o   The rate used was the rate in the contract between PSU and Oregon
              Volunteers;

          o   The contract, along with the PSU NICRA, were submitted annually to the
              Corporation for review;

          o   The rate in the new contract between PSU and Oregon Volunteers was
              changed to the other sponsored project rate of 31 percent.

          o   The 2012 budgets submitted to the Corporation used the 31 percent rate for
              2012 and the years forward.

          PSU officials stated that there is not a direct correlation between the “Sponsored
          Community Service” program code used for Oregon Volunteers awards and the
          “Other Sponsored Activity” rate from its NICRA. PSU has historically applied its
          research rate to sponsored projects unless they were primarily instructional in
          nature. In those instances, it applied its higher instructional rate. The use of
          PSU’s research rate was consistent with its costs practices but in the future, it will
          use its other sponsored activity rate for projects such as these awards. PSU is
          using the other sponsored activity rate in the contract with Oregon Volunteers for
          the current Corporation awards.

Finding 1d.

         It will provide the Corporation with backup documentation exceeding the amount
          of questioned costs. Oregon Volunteers stated:

          o   It acknowledged that its practice was to record program income at the time
              income was received rather than as it was expended;


                                             19
          o   At the time of the onsite visit, it provided an income log to the auditors and
              discussed the log with the auditors. However, the auditors did not request
              backup for actual program income expenditures during the on-site visit or
              during post on-site fieldwork inquiries made by the Oregon Volunteers
              Executive Director and Finance Officer.

         As a corrective action, it changed the internal financial policies to track program
          income only as it is expended.

Accountants’ Comments: Responses to the findings and corrective actions follow:

Finding 1a.

         During fieldwork, Oregon Volunteers only provided a copy of an invoice from the
          United Way. The administrative grant and the mini-grant are subject to the
          financial management and cost principal requirements. As a result, expense
          documentation is required to support the cost.

Finding 1b.

         We do not agree with the Oregon Volunteers response. As discussed in the
          finding, the application instructions state that indirect costs generally cannot be
          charged to the PDAT and Disability grants and that the Administrative grant is
          intended to cover those costs. We contend that the reason the indirect cost cells
          in the PDAT and Disability budgets are locked is that indirect costs are not
          allowed on the grants.

Finding 1c

         Using the other sponsored project rate in the new contract between PSU and
          Oregon volunteers and in the new budgets submitted to the Corporation is
          responsive to the recommendations. However, we do not agree with PSU’s
          responses or that the costs should not be questioned. PSU stated that it
          historically applied the research rate to sponsored projects and that the use of
          the research rate was consistent with its costs practices. Although the process
          was consistent, it was not allowable, because Oregon Volunteers did not perform
          any research activities and therefore is not entitled to the higher research rate.

Finding 1d.

         We do not agree with Oregon Volunteers’ statement that we did not request
          backup for actual program income expenditures.

          o   On October 4, 2011, we provided a request list of documents needed during
              the planning visit, including a request for transaction-level accounting reports
              supporting match expenditures for the Administrative grant. We noted on the
              request list that the reports would be used to select a sample of match
              expenditures for testing.



                                             20
             o   On January 3, 2012, we emailed a sample of match costs that were selected
                 using the reports provided by Oregon Volunteers. The sample included
                 $48,405 of the $73,446 questioned match costs. In the email, we requested
                 that Oregon Volunteers provide original supporting documentation for the
                 salaries, benefits, and other direct cost samples that were attached to the
                 email.

            We do not agree with Oregon Volunteers’ corrective action. It should track
             program income received and expended and it should maintain supporting
             documentation for the expenses.

            We continue to make the recommendations stated above.

Finding 2.       Subgrantees did not ensure that claimed Federal costs were adequately
                 supported, compliant with applicable regulations, and properly calculated.

DHS, ARC, and NYC claimed unsupported, unallocable, and unallowable Federal other
direct costs.

a. We questioned $1,188 of DHS Federal other direct costs which are not adequately
   supported. Details follow:

      In February 2010, DHS claimed $137 of office supplies and materials costs. The
       subgrantee provided a copy of a coding sheet showing a $137 charge at Safeway for
       supplies for a project for Martin Luther King, Jr., Day. The subgrantee did not
       provide the purchase invoice or documentation to support what items were
       purchased.

      In June 2010, DHS claimed $350 of instate tuition/registration costs. The subgrantee
       provided a copy of a Visa statement showing a $350 charge for “Conference
       Solutions,” but did not provide the purchase invoice or documentation to support the
       purpose of the charge.

      In September 2010 and June 2011, DHS claimed $249 and $452, respectively, for
       office supplies and materials. For both transactions, DHS provided Visa invoices
       showing the charges of $249 and $452 for OfficeMax, but did not provide the
       purchase invoice or documentation to support the purpose of the charges.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   Attachment A., Subsection C. Basic Guidelines 1. Factors Affecting Allowability of Costs,
   states that an award cost must be adequately documented to be allowable.

b. We questioned $14,153 ($7,560 + $1,740 + $269 + $3,285 + $1,011 + $38 + $250) of
   unsupported, unallocable, and unallowable ARC Federal costs. In addition, we
   questioned $11,539 ($10,110 + $1,429) of administrative costs related to questioned
   Federal costs. Details follow:

      In August 2011, ARC claimed $7,560 of Federal costs for rent associated with its
       service sites at Red Cross chapters throughout Oregon and local community based
       organization sponsors. To support these costs, ARC provided a spreadsheet

                                              21
    summarizing the amount of rent costs claimed for each organization and an internal
    email stating that approval had been received to allocate 60 percent of the total rent
    costs as Federal costs ($12,600 x 60 percent). In addition, it provided copies of
    certifications completed by officials at the organizations. These forms showed that
    some of the rent costs claimed were based on estimates and projections of future
    rent costs. Some claimed rent costs also appeared to be budget estimates, because
    the amount claimed equaled the exact amount of rent costs budgeted for service
    sites in ARC’s approved budget. It did not provide any documentation to support to
    the actual amount of rent costs at these sites.

   In August 2011, ARC claimed 60 percent or $1,740 of internal-member disaster-
    training expenses as Federal costs. It did not provide any documentation to support
    the $100 per-person rate or that 29 persons attended the training event.

   In July 2010, ARC claimed 81 percent or $269 of Federal costs for internal rent
    costs. It provided an email that stated rent was $333 per month for one person, and
    $269 of that percentage was to be allocated as Federal costs. It did not provide any
    source documentation, such as an invoice or rental agreement, and did not provide
    any documentation to support the amount allocated to the award. After discussing
    this sample with ARC, its Program Director provided an email explaining its current
    methodology for allocating rent costs. Amounts on the current allocation did not,
    however, match amounts claimed.

    OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.,
    General Principles, Paragraph 2.g, Factors affecting allowability of costs, states that
    costs must be adequately documented.

   In September 2011, ARC claimed 60 percent or $3,285 of costs for office supplies
    purchased from an online retailer on August 31, 2011. The office supplies
    purchased included fax machine, printer, printer ink cartridges, laptop computer and
    laptop computer sleeve, wireless mouse, and an Apple iPAD2 & case. These costs
    were not allocable to Program Year (PY) 2010-2011, because the supplies were
    purchased after all PY 2010-2011 members had been exited from the program. In
    addition, these supplies were not in ARC’s approved budget and exceeded the total
    amount budgeted for supplies by $1,410, or 35 percent ($3,285 ÷ $2,439).

   In September 2011, ARC claimed $1,011 of Federal costs for “Orientation Participant
    Guides” purchased on August 31, 2011. These guides were not allocable to PY
    2010-2011, because they were purchased after all PY 2010-2011 members had
    been exited from the program.

    OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.
    General Principles 4. Allocable costs, states that a cost is allocable to a particular
    cost objective if the goods or services involved are chargeable or assignable to such
    cost objectives in accordance with relative benefits received.

   We questioned $38 of excess Federal lodging costs. In August 2010, ARC claimed
    on its ARRA award $115 of lodging costs ($105 lodging + $10 taxes) as Federal
    costs for a member to attend an ARC member graduation ceremony. ARC did not
    have a formal written travel policy, and its subcontract with Oregon Volunteers
    required it to follow rates set forth in the State of Oregon Accounting Manual (OAM).
                                           22
       The OAM followed GSA Per-Diem Limits. Using these rates, ARC should have only
       claimed $77 ($70 of lodging and $7 of taxes).

      We questioned $250 of excess Federal administrative costs claimed on the ARRA
       award. Total Federal administrative costs claimed on the final PER were $15,319, or
       5.08 percent of total Federal costs. Allowable administrative costs were, however,
       $15,069, or 5 percent of total Federal costs. Oregon Volunteers instructs its
       subgrantees to adjust Federal and match expenses to match total budgeted
       percentages. As a result, ARC moved $250 from match costs to Federal costs and
       took these costs from the administrative costs line item.

       45 CFR § 2540.110(a)(1), Limitation on use of Corporation funds for administrative
       costs, states that no more than 5 percent of grant funds may be used to pay for
       administrative costs.

      We questioned $10,110 of PY 2009-2010 and PY 2010-2011 administrative costs
       and $1,429 of ARRA administrative costs related to the questioned Federal costs
       regarding state criminal history checks (Finding 5), NSOPR Checks (Finding 6), and
       the Federal costs described above.

       Questioned Federal Costs          PY 2009-2010      PY 2010-2011       ARRA
       Finding 5                             $89,528           $61,101        $26,867
       Finding 6                                   0            27,982              0
       Finding 2                                   0            13,596            307
       Subtotal                              $89,528         $102,679         $27,174
       Administrative Costs Percentage        5.26%             5.26%          5.26%
       Questioned Administrative Costs        $4,709            $5,401         $1,429


c. We questioned $521 ($40 + $200 + $281) of NYC Federal Costs not adequately
   supported. In addition, we questioned $4,432 of administrative costs related to
   questioned Federal costs. Details follow:

      In August 2010, NYC claimed $347 of Federal costs for garden expenses. It
       provided a check and invoices to support $307 of the expenses. It provided a
       handwritten note identifying $40 for a farm field trip, a copy of a trip schedule, and
       farm description. It did not provide documentation to support the purpose of the
       claimed $40.

      In December 2010, NYC claimed $554 of Federal costs for an AmeriCorps retreat
       held on February 4 and 5, 2011. The invoice provided to support these costs noted
       that $200 of the costs was a refundable damage deposit. NYC did not know if it
       received the refund and sent an email to the vendor on January 26, 2012, asking for
       this information. The vendor replied the same day and stated that it issued a credit
       for the $200 deposit on January 26 and that a refund would arrive by February 1,
       2012. Because this refund has not been adjusted out of claimed costs, claimed
       costs charged to the grant were overstated by $200.

      In May 2011, NYC claimed $363 of per diem, mileage for site visits, and travel to
       Corporation events. It provided documentation showing $82 for parking and per
       diem, $40 for mileage for site visits, and $241 for travel to Corporation events. It
                                              23
         provided documentation for the $82 of parking but did not provide any invoices or
         mileage logs to support the $281 ($363-$82). It provided only a spreadsheet
         showing total mileage driven and a report showing mileage readings taken for certain
         vehicles in PY 2010-2011 with certain mileage amounts highlighted. It did not
         provide any documentation to demonstrate how the spreadsheet or report related to
         the costs claimed. We question $281 for lack of support.

         As previously discussed, OMB Circular A-122, Cost Principles for Non-Profit
         Organizations, Attachment A, Paragraph 2.g, states that costs must be adequately
         documented to be allowable.

        We questioned $4,432 of PY 2009-2010 and PY 2010-2011 administrative costs
         related to the questioned Federal costs relating to state criminal history checks
         (Finding 5), NSOPR checks (Finding 6), and the questioned Federal costs described
         above. Details follow.

            Questioned Federal Costs                 PY 2009-2010    PY 2010-2011
            Finding 5                                   $55,512         $25,344
            Finding 6                                         0           2,889
            Finding 2                                        40             481
            Subtotal                                    $55,552         $28,714
            Administrative Costs Percentage              5.26%           5.26%
            Questioned Administrative Costs              $2,922          $1,510


Recommendations: We recommend that the Corporation:

   2a.      Instruct Oregon Volunteers to review applicable regulations and strengthen its
            subgrantee monitoring procedures to ensure that Federal costs claimed by
            subgrantees are allowable, adequately documented, and allocable in accordance
            with applicable cost principles and regulations;

   2b.      Verify implementation of Oregon Volunteers’ strengthened policies and
            procedures for ensuring that Federal costs claimed by subgrantees are
            allowable, adequately documented, and allocable in accordance with applicable
            cost principles and regulations; and

   2c.      Calculate and recover the appropriate amount of disallowed costs and related
            administrative costs based on our costs questioned and require Oregon
            Volunteers to adjust its FFR for the disallowed costs.

Oregon Volunteers Response: Generally, it did not concur with the findings and did not
believe any costs should be questioned. Its responses follow:

Finding 2a.

           It did not concur with the $1,188 of questioned DHS costs. It will provide
            documentation for all questioned costs to the Corporation.



                                              24
Finding 2b.

         It did not concur with the $7,560 of questioned ARC costs. Documentation of
          space costs for AmeriCorps members were collected at the program level
          through a certification process that did not include copies of the local lease,
          rental, or space allocation agreements. It will provide documentation that
          exceeds the amount of questioned costs to the Corporation. ARC changed its
          policies for the upcoming program year and will require copies of lease and rental
          documents from its placement sites;

         It concurred with the $1,740 of questioned ARC costs. It agreed that the costs
          were unsupported for the period under review and stated that ARC excluded
          these costs from its PY 2011-2012 budget;

         It did not concur with the $269 of questioned ARC costs. It will provide
          documentation for the questioned costs to the Corporation;

         It did not concur with the $3,285 of questioned ARC costs. Oregon Volunteers
          allows its programs to purchase supplies for subsequent grant years if
          reasonable. All supplies were for staff members who continued to work on the
          program year after the members had exited the program. The program
          contacted Oregon Volunteers and received permission to purchase the supplies.
          Further, per Corporation guidelines, Oregon Volunteers allows its programs to
          shift budget expenditures up to ten percent of the aggregate budget;

         It did not concur with the $1,011 of questioned ARC costs. Oregon Volunteers
          allows its program to purchase supplies for subsequent grant years if reasonable.
          It particularly allows programs to purchase member recruitment and training
          supplies at year end because such expenses often must be incurred prior to
          member start dates;

         It concurred with the $38 of questioned ARC costs. ARC now uses an online
          travel system that will ensure that program staff stay within the OAM rates.

         It did not concur with the $250 of questioned ARC costs. Oregon Volunteers
          provided guidance to ARC about making adjustments between the Corporation
          and match share of costs. Under this guidance, ARC was allowed to align the
          total actual year-to-date percentages with match budgeted percentages and the
          policy was to make such adjustments in the member living allowance line item.
          In February 2010, a $250 adjustment was made; however, this adjustment was
          made on the incorrect line item of the Periodic Expense Report (PER). As result,
          claimed administrative costs exceed 5.26 percent. If the adjustment had been
          made to the living allowance line in accordance with policy, the program would
          have received $250 plus $13 of administrative costs. This was not an
          unallowable cost but is instead was a misposting that was not identified.

Finding 2c.

         It concurred in part with the $40 of questioned costs. NYC received oral
          confirmation of the charge, and is working to obtain supplemental written
                                            25
          documentation. Oregon Volunteers will submit this documentation to the
          Corporation.

         It did not concur with the $200 of questioned costs. NYC received a refund for
          the $200 security deposit in March 2012. The refund was credited against NYC’s
          PY 2010-2011 periodic expense report submitted to Oregon Volunteers in March
          2012 and the adjustment was included in Oregon Volunteers March 31, 2012
          FFR submitted to the Corporation.

         It concurred in part with the $281 of questioned costs. NYC provided Oregon
          Volunteers with supplemental informational on its procedures for documenting
          vehicle costs. Oregon Volunteers will submit this information to the Corporation.

Accountants’ Comments: Responses to the findings and questioned costs follow:

Finding 2a. & 2c.

         The Corporation should review the additional documentation that the grantee
          agreed to provide.

Finding 2b.

         Oregon Volunteers response for the $250 of questioned costs did not agree with
          documentation provided by ARC. Specifically,

          o   The February 2010 PER provided by ARC did not show an adjustment in the
              living allowance line item or in the administrative costs line item. The report
              only showed current period expenses. In addition, the report showed that all
              of the living allowance costs claimed by ARC were Federal costs.

          o   We reconciled living allowance costs claimed by ARC on its final PER
              submitted in October 2010. The PER and supporting accounting report
              showed that all living allowance costs claimed by ARC were Federal costs.

          o   Because ARC did not have any match living allowance costs, it could not
              have made a misposting error while trying to align Federal and match costs.

         Oregon Volunteers stated in its response to the $3,285 and $1,011 of questioned
          costs that it allows its programs to incur these for subsequent grant years if
          reasonable. Its policy does not comply with the OMB Circulars A-87 and A-122.
          These costs would be considered pre-award costs for PY 2011-2012. Pre-award
          costs are allowable if approved by the Corporation. Oregon Volunteers also
          stated in its response that all of the supplies were for staff members who
          continued to work on a program after the members had exited. However, ARC’s
          September 2011 PER and accounting records showed that ARC only claimed
          personnel costs through September 9, 2011. Personnel costs after this date
          were charged to PY 2011-2012.

          Oregon Volunteers did not respond to the recommendations and stated that it
          disagreed with most of the questioned costs because its policies allowed

                                             26
             subgrantees to purchase supplies for subsequent grant years and because it
             subsequently provided the Corporation with documentation that it believed
             supported the questioned costs. However, as discussed above Oregon
             Volunteers’ policy does not comply with the OMB Circulars A-87 and A-122.

            We continue to make the recommendations stated above. The Corporation
             should ensure during resolution that Oregon Volunteers’ financial monitoring
             procedures are effective.

Finding 3.      Subgrantees did not ensure that claimed match costs were adequately
                supported, compliant with applicable regulations, and properly
                calculated.

DHS, ARC, and NYC claimed unsupported, unallocable, and unallowable match costs.

a. In PYs 2009-2010 and 2010-2011, DHS claimed match costs that were unallocable and
   unsupported.

      In PY 2009-2010, DHS claimed match costs for office supplies and materials costs
       purchased at the end of the program year.

      In PYs 2009-2010 and 2010-2011, DHS claimed costs incurred by its service sites
       that were not adequately supported or verifiable from recipient records. DHS did not
       provide site supervisor timesheets for all of our samples and did not adequately
       document salary, benefit, and other costs for another DHS division that was a
       service site. Affidavits of value forms used by the service sites were estimates, in
       some instances were for the wrong program year and were completed as early as 2
       months before the program year start. DHS did not perform any additional
       procedures and did not obtain any additional documentation to verify that amounts
       claimed on the affidavits for value forms for all samples were correct. Finally, as
       discussed in the finding related to state criminal history checks (Finding 5), DHS did
       not provide any documentation to prove that site supervisors whose personnel costs
       were claimed had undergone National Service Criminal History Checks.

       OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.4.
       Allocable costs, states that a cost is allocable to a particular cost objective if the
       goods or services involved are chargeable or assignable to such cost objectives in
       accordance with relative benefits received.

       According to 45 CFR § 2541.240 (b) (6), Records, costs and third-party in-kind
       contributions counting towards satisfying a cost-sharing or matching requirement
       must be verifiable from grantee and subgrantee or cost-type contractor records.
       These records must show how the value placed on third-party in-kind contributions
       was derived. To the extent feasible, volunteer services will be supported by the
       same methods that the organization uses to support the allocability of regular
       personnel costs.

       According to 45 CFR § 2541.240(d), Valuation of third party donated supplies and
       loaned equipment or space, if a third party donates supplies, the contribution will be
       valued at the market value of the supplies at the time of donation. If a third party

                                              27
       donates the use of equipment or space in a building but retains title, the contribution
       will be valued at the fair rental rate of the equipment or space.

b. In PYs 2009-2010 and 2010-2011 and on the ARRA award, ARC claimed unallowable
   match costs. Details follow.

      In PYs 2009-2010 and 2010-2011, ARC claimed match costs for member service
       gear office supplies and orientation. These costs were not allocable to these
       program years because they were purchased at the end of the grant year, after its
       members had been exited from the program, and in one instance, purchased the
       same day the last member was exited from the program.

      In PYs 2009-2010 and 2010-2011 and on its ARRA award, ARC claimed rent
       expenses and internal member disaster training expenses as match costs. It
       provided an email stating that rent was a certain amount per month but did not
       provide any source documentation, such as an invoice or rental agreement, and did
       not provide any documentation to support the amounts allocated to the awards. It
       did not provide any documentation to support the per-person rate or the actual
       number persons who attended the training event.

      In PY 2010-2011, ARC claimed match costs for rent associated with its service sites.
       To support these costs, ARC provided a spreadsheet that summarized the amount of
       rent costs claimed for each service site, an internal email discussing the amounts to
       be allocated, and copies of certifications completed by officials at the service sites.
       These forms showed that some of the rent costs claimed were based on estimates
       and projections of future rent costs. It did not provide any documentation to support
       the actual amount of rent costs at these sites.

       OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.
       General Principles 4. Allocable costs, states that a cost is allocable to a particular
       cost objective if the goods or services involved are chargeable or assignable to such
       cost objectives in accordance with relative benefits received.

       OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.
       General Principles, Paragraph A. Basic Considerations, subparagraph 2.g, states
       that costs must be adequately documented.

      In PY 2009-2010, ARC claimed lodging costs as match for a staff member to perform
       site visits, attend regional meetings, and to make a presentation at a board meeting.
       ARC did not have a formal written travel policy, and its subcontract with Oregon
       Volunteers required it to follow rates set forth in the State of Oregon Accounting
       Manual (OAM). The OAM followed GSA Per-Diem Limits. ARC claimed the lodging
       costs in excess of the required rates.

c. In PYs 2009-2010 and 2010-2011, NYC claimed match costs that were not adequately
   supported.

      In PYs 2009-2010 and 2010-2011, NYC claimed match costs for allocations of
       facilities and maintenance costs, vehicle fuel and oil costs, vehicle replacement
       costs, facility loan payment costs, equipment, and tools that were not adequately

                                              28
         supported. NYC provided documentation to show that the costs claimed were
         allocations. However, costs claimed were based on budget estimates and NYC did
         not provide support to show how the allocations were determined. Additionally, in
         some instances NYC did not provide invoices or documentation to show how the
         amount of costs used in the allocations were determined, how documentation
         provided related to claimed costs, and how useful life years used in the allocations of
         equipment and tools.

        In PYs 2009-2010 and 2010-2011, NYC claimed education and training costs as
         match. The subgrantee provided documentation showing that the amounts claimed
         were allocations of Driver Training and Orientation costs. The cost allocations were
         based on staff time, vehicle costs, training manuals, and number of members
         participating in training. NYC provided a payroll report to support the amount of staff
         wages, but it did not provide timesheets or sign-in sheets to verify the number of staff
         and AmeriCorps members that participated in the training. The documentation
         provided showed that vehicle costs were based on budgeted amounts.

        In PYs 2009-2010 and 2010-2011, NYC claimed food costs as match. In one
         instance, it provided an invoice on which it billed itself for the food costs, but did not
         provide other documentation to show how the amount was determined. In another
         instance, it claimed food costs for an AmeriCorps retreat using petty cash funds. It
         provided invoices supporting food expenses for part of the amount claimed but did
         not provide documentation to show that remaining part of petty cash funds had been
         adjusted out of claimed costs.

45 CFR § 2543.23, Cost sharing or matching, states that all costs and third-party in-kind
contributions counting toward satisfying a cost-sharing or matching requirement must be
verifiable from grantee and subgrantee or cost-type contractor records. These records must
show how the value placed on third-party in-kind contributions was derived. To the extent
feasible, volunteer services will be supported by the same methods that the organization
uses to support the allocability of regular personnel costs.

Recommendations: We recommend that the Corporation:

   3a.      Require Oregon Volunteers to review applicable regulations and strengthen its
            subgrantee monitoring procedures to ensure that match costs claimed by
            subgrantees are allowable, adequately documented, and allocable in accordance
            with applicable cost principles and regulations; and

   3b.      Verify implementation of Oregon Volunteers strengthened policies and
            procedures for ensuring that match costs claimed by subgrantees are allowable,
            adequately documented, and allocable in accordance with applicable cost
            principles and regulations.

Oregon Volunteers Response: It partially concurred with this finding. Its responses
follow:

           Some parts of Findings 3a, 3b, and 3c, directly correlate to questioned costs in
            Findings 2 and 4. Its responses have been included in those findings.


                                                 29
Corrective Actions:

            Its fiscal manual will be revised to provide specific requirements for
             documentation on in-kind support claimed as match on program budgets and
             provide sample time and space tracking documents for program use.

            It will expand its financial monitoring systems to include an expanded review of
             in-kind documentation.

            Match documentation will be discussed at its September 2012 program directors
             meeting.

Accountants’ Comments:

            We continue to make the recommendations stated above.

            Oregon Volunteers did not respond to the recommendations and stated that it
             disagreed with most of the questioned costs because its policies allowed
             subgrantees to purchase supplies for subsequent grant years and because it
             subsequently provided the Corporation with documentation. However, as
             discussed above, Oregon Volunteers’ policy does not comply with the OMB
             Circulars A-87 and A-122.

            During resolution, the Corporation should ensure that the corrective actions
             implemented by Oregon Volunteers its monitoring procedures for match costs
             claimed by subgrantees are effective and in accordance with applicable cost
             principles and regulations.

Finding 4.      Subgrantees’ timekeeping systems did not comply with Federal and
                state requirements, and subgrantees did not ensure the allowability
                of claimed site-supervisor labor costs.

a. We questioned $4,188 of unsupported salary and benefit costs claimed by DHS for
   supervisors at its service sites. Details follow:

   On its December 2010 Periodic Expense Report, DHS claimed $10,857 as Federal
   salary costs and $5,308 as Federal benefit costs. These costs were comprised of
   $7,743 of DHS salary costs and $4,234 of DHS benefit costs; and $3,114 of salary costs
   and $1,074 of benefit costs for supervisors at the member service sites. To support
   service-site salary and benefit costs, DHS provided a copy of its internal service-site
   tracking spreadsheet and copies of its “Affidavit re: Value of AmeriCorps Site
   Supervisor’s Salary and Benefits” forms for five site supervisors. It did not, however,
   maintain timesheets and payroll reports supporting hours spent supervising members. It
   also did not obtain documentation to verify the accuracy of salary-and-benefit amounts
   reported on these forms.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B, paragraph, 8.h, Support of salaries and wages (1), requires charges to
   Federal awards for salaries and wages, whether treated as direct or indirect costs, to be


                                               30
   based on payrolls documented in accordance with generally accepted practice of the
   governmental unit and approved by a responsible official(s) of the governmental unit.

   Timesheets provided by DHS to support the remaining $11,977 ($7,743 + $4,234) of
   sampled December 2010 personnel costs were not signed and approved by a DHS
   supervisor. According to Chapter 45 of the OAM, a supervisor is responsible for the
   review and approval of all employee time records.

b. In PY 2009-2010, ARC claimed $144 of match personnel costs not supported by a
   timesheet for one employee. In addition, on the ARRA award, ARC claimed $369 of
   match personnel costs not supported by timesheets for two employees.

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B,
   Selected Items of Cost, Paragraph 8.m., Support of salaries and wages, states that the
   distribution of salaries and wages to awards must be supported by personnel activity
   reports that reflect an after-the-fact determination of actual activity of each employee.

c. Employee and supervisor signatures were not dated on four timesheets provided by
   NYC to support sampled September 2010 match personnel costs and on one timesheet
   provided by NYC to support sampled August 2011 match personnel costs. In addition,
   the supervisor signature was not dated on one timesheet provided by NYC to support
   August 2011 personnel costs. NYC representatives did not know why certain
   timesheets contained undated signatures. Without dates, we cannot determine if
   timesheets were prepared after hours were worked by the employees, as required by
   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B,
   Selected Items of Cost, Paragraph 8.m., Support of salaries and wages. We are not
   questioning the labors cost but are reporting the undated signatures a noncompliance
   issue with grant provisions.

Recommendations: We recommend that the Corporation:

 4a.     Require Oregon Volunteers to strengthen its monitoring procedures to ensure that
         subgrantee timesheets are completed in accordance with applicable costs
         principles and regulations at all of its subgrantees;

 4b.     Require Oregon Volunteers to strengthen its monitoring procedures to ensure that
         employee and supervisor timesheet signatures are dated;

 4c.     Verify implementation of Oregon Volunteers’ strengthened monitoring procedures for
         staff timesheets; and

 4d.     Calculate and recover the appropriate amount of disallowed costs and administrative
         costs based on our questioned costs and require Oregon Volunteers to adjust its FFRs
         for the disallowed costs.

Oregon Volunteers Response: It partially concurred with the finding. It concurred with the
findings related to match documentation but did not concur with the DHS unsupported salary
and benefit costs for supervisors at its service sites. It obtained signed timesheets for the
site supervisors and will forward the timesheets to the Corporation.


                                             31
Corrective Actions:

            Its fiscal manual will be revised to provide specific requirements for
             documentation on in-kind support claimed as match on program budgets and
             provide sample time and space tracking documents for program use.

            It will expand its financial monitoring systems to include an expanded review of
             in-kind documentation.

            Match documentation will be discussed at its September 2012 program directors
             meeting.

Accountants’ Comments: We continue to make the recommendations stated above.
During resolution, the Corporation should ensure that the corrective actions implemented by
Oregon Volunteers are effective.

Finding 5.      Subgrantees did not comply with AmeriCorps requirements for state
                criminal history checks and did not demonstrate that such checks were
                conducted on members and grant-funded staff.

The Corporation’s requirements for conducting National Service Criminal History checks are
discussed in detail in 45 CFR §2540.200 through §2540.207. As discussed in 45 CFR
§2540.202, What two search components of the National Service Criminal History Check
must I satisfy to determine an individual's suitability to serve in a covered position?, a
National Service Criminal History Check consists of a state criminal history registry check
and a NSOPR check, unless the Corporation approves an alternative screening protocol
(ASP) request.

Further, 45 CFR §2540.200, To whom must I apply suitability criteria relating to criminal
history?, and the Corporation’s Frequently Asked Questions, National Service Criminal
History Checks, Paragraph 5.1, a “covered position” for which there must be a check is
defined as an individual receiving a Federal or match-funded living allowance, stipend,
education award, salary, or other remuneration. As discussed in 45 CFR §2540.203, When
must I conduct a State criminal registry check and a National Sex Offender Public Web site
check on an individual in a covered position?, National Service Criminal History checks were
required for members and grant-funded staff enrolled and hired after November 23, 2007,
with recurring access to vulnerable populations. These checks were required for all
members and grant-funded staff enrolled and hired on or after October 1, 2009.

As discussed in the following paragraphs, ARC, NYC, and DHS conducted state criminal
history checks that did not comply with AmeriCorps requirements and did not provide
documentation to demonstrate that state criminal history checks were conducted for
individuals in covered positions.

a. We questioned ARC living allowances and member benefits (member costs), education
   awards, and accrued interest and personnel costs for a grant-funded staff member
   whose state criminal history checks were conducted by third-party vendors. Details
   follow:



                                               32
      ARC conducted state criminal history registry checks on PY 2009-2010 and ARRA
       members using a third-party vendor, MyBackgroundCheck. It conducted state
       criminal history registry checks on PY 2010-2011 members and one grant-funded
       staff member using another third-party vendor, Pre-employ. It relied on assurances
       from vendor customer service representatives that the criminal registries recognized
       by the Corporation were checked, and it did not obtain any vendor documentation to
       support their assurances. Because ARC believed its vendors were checking the
       required registries, it did not submit an ASP request to the Corporation.

       45 CFR §2540.202 states that until the Corporation approves an ASP request, state
       criminal history and NSOPR checks must be conducted.

       Details of instances, questioned member costs, questioned education awards, and
       questioned accrued interest are summarized below (Member Nos. 11-22 and 24-32).

                           Inadequate      Questioned     Questioned     Questioned
                         State Criminal     Member        Education       Accrued
       Award No.         History Checks      Costs         Awards         Interest
       09ACHOR001                18         $150,629       $68,293         $3,268
       09RCHOR002                 3           26,867        10,459             45
       Total                     21         $177,496       $78,752         $3,313


      We questioned claimed salary and benefits costs of $27,982 for one ARC grant-
       funded staff member with a third-party vendor criminal history check. As discussed
       above, the third-party vendor criminal history checks conducted by ARC did not
       comply with Corporation regulations.

b. We questioned NYC member costs, education awards, and accrued interest for state
   criminal history checks conducted using third-party vendors and members serving a
   second term following a break in service of more than 30 days. In addition, NYC did not
   provide documentation to support that it performed a state criminal history registry check
   prior to claiming the salary of a grant funded staff member as match. Details follow.

      NYC used third-party vendors to conduct state criminal history checks for three
       sampled PY 2009-2010 members and one sampled PY 2010-2011 member and did
       not provide documentation to support that the state registries recognized by the
       Corporation were searched by the third-party vendors. On February 1, 2010, NYC
       submitted an ASP request, as required by 45 CFR §2540.202, to the Corporation to
       use two vendors, Advanced Reporting and Criminal Information Services, for
       national service criminal history checks. The Corporation declined NYC’s ASP on
       August 2, 2010, because the third-party vendors did not check the recognized state
       registries.

       NYC did not conduct additional criminal history checks for members whose checks
       were conducted by Advanced Reporting, but used Criminal Information Services to
       conduct a criminal history check for a member who enrolled on November 15, 2010,
       after the ASP request was denied. NYC representatives did not know this vendor
       was used to conduct the state criminal history check until after its ASP request was
       denied.

                                             33
      Details of instances, questioned member costs, questioned education awards, and
      questioned accrued interest are summarized below (Member Nos. 33, 34, 36, and
      39).

                          Inadequate       Questioned     Questioned      Questioned
                        State Criminal      Member        Education        Accrued
      Award No.         History Checks       Costs          Awards         Interest
      06AFHOR001               4            $43,159        $17,163            $925

     NYC did not provide documentation to support that it conducted state criminal
      registry checks on two sampled PY 2009-2010 members, and one sampled PY
      2010-2011 member. In addition, it did not provide documentation to support that the
      state criminal history check for one grant-funded staff member was done timely. The
      two PY 2009-2010 and one PY 2010-2011 members were returning members, The
      files contained state criminal history checks from a previous program year but their
      break between service periods was greater than 30 days.

                                             Prior                    Days
                Member                      PY Exit     Entrance     between
                 No.            PY           Date         Date       service
                  37         2009-2010      7/1/09       9/9/09         70
                  38         2009-2010      6/16/09      8/24/09        69
                  40         2010-2011      6/24/10      8/27/10        64

      As discussed in 45 CFR §2540.203, individuals serving consecutive terms of service
      in a program with a break in service of more than 30 days, are required to receive an
      additional check. Details of instances, questioned member costs, questioned
      education awards, and questioned accrued interest award follow:

                Missing State    Questioned      Questioned        Questioned
                  Criminal        Member         Education          Accrued
               History Checks      Costs          Awards            Interest
                      3           $37,697          $14,800           $2,232

     NYC did not provide documentation to support that it performed a state criminal
      history registry check prior to claiming the salary of a grant funded staff member as
      match. NYC representatives stated that the staff member had several terms of
      employment with January 10, 2010, as the staff member’s most recent start date.
      NYC did not know why a criminal history check was missing for the staff member.

c. We questioned DHS member costs, education awards, and accrued interest for
   members without state criminal history checks and personnel costs for service-site
   supervisors without documentation of National Service Criminal History Checks.
   Details follow:

     We questioned Federal member costs of $10,803, an education award of $5,350,
      and accrued interest of $2,589 for one DHS PY 2010-2011 member (Member No.
      10) without a criminal history registry check. DHS provided a screenshot of its
      background check database as support. It showed that state criminal history and
      FBI checks were initiated during the member’s first service term on September 23,
      2009, but results were not received. The member would be ineligible for a second
                                            34
         term without a state criminal history registry check. DHS representatives did not
         know why the state criminal history check results were missing for the member.

        We questioned $4,188 of salary and benefit costs claimed for service site
         supervisors without documentation of National Service Criminal History Checks.
         DHS did not provide any documentation of National Service Criminal History Checks
         for site supervisors whose $4,188 of salaries and benefits costs were claimed in
         December 2010. The site-supervisor salary and benefits costs of $4,188 are already
         included in the unsupported site-supervisor costs in the subgrantees timekeeping
         system finding (Finding 4a).

         45 CFR § 2540.205, What documentation must I maintain regarding a National
         Service Criminal History Check for a covered position?, requires grantees to
         maintain results of checks unless prohibited by state law and to document in writing
         that results were considered when selecting members.

Recommendations: We recommend that the Corporation:

   5a.      Provide guidance to Oregon Volunteers to ensure that all of its subgrantees
            conduct and maintain documentation to support that state criminal history checks
            were conducted on individuals in covered positions; use state criminal databases
            recognized by the Corporation; submit ASP requests to the Corporation as
            required by AmeriCorps regulations; and follow Corporation decisions on ASP
            requests;

   5b.      Verify that Oregon Volunteers has implemented effective state criminal history
            check procedures at all of its subgrantees;

   5c.      Disallow and, if already used, recover education awards and accrued interest
            awarded to members with questioned education awards; and

   5d.      Calculate and recover the appropriate amount of disallowed costs, and
            administrative costs based on our questioned cost and require Oregon
            Volunteers to adjust its FFRs for the disallowed costs.

Oregon Volunteers Response: Generally, it did not concur with the findings. It responded
that during the program years reviewed there was conflicting information available from the
Corporation regarding use of third-party vendors to conduct criminal history checks. Now
that the Corporation has clarified the regulation, all Oregon Volunteers subgrantees are
compliant. Its responses to the findings follow:

Finding 5a.

           It did not concur with the questioned member costs, education awards, accrued
            interest, and staff costs.

           Oregon Volunteers’ guidance to ARC was to obtain an email confirmation from
            the vendor stating that its background checks met Corporation requirements.
            ARC followed this guidance in PY 2009-2010. In PY 2010-2011, ARC received
            an email from the Pre-employ vendor that stated its background check package
            did not meet Corporation requirements but a package that met the requirements
                                               35
          could be set up. Oregon Volunteers approved the use of the package that was to
          be set up by the vendor.

         In PY 2011-2012, ARC continued to use the Pre-employ vendor for the state
          background checks conducted on members who resided outside of Oregon.

         By PY 2011-2012, ARC used a FBI fingerprint background check, as well as a
          check from the Official Oregon State Repository.

         After ARC was informed of the problems with the vendor checks during onsite
          fieldwork, it contacted Oregon Volunteers and conducted new state background
          checks for those members who resided outside of Oregon. It used the official
          repositories for those states to conduct the checks.

Finding 5b.

         It partially concurred with the questioned member costs, education awards, and
          accrued interest for vendor criminal history checks conducted on members after
          NYC received notification from the Corporation that its ASP request had been
          denied. Oregon Volunteers believed the program acted in good faith at a time
          when Corporation regulations were changing and believed that the Corporation
          should consider this when resolving the findings.

         It partially concurred with the questioned member costs, education awards, and
          accrued interest for members serving a second term following a break in service
          of more than 30 days. It asserted that it gave its best efforts in interpreting the
          guidance it received from the Corporation and NYC strengthened its policies
          regarding background checks,

         It partially concurred with the finding for the grant-funded staff member that did
          not have a state criminal history registry check. It asserted that it gave its best
          efforts in interpreting the guidance it received from the Corporation. NYC revised
          its policies to ensure that background checks meet Federal regulations.

Finding 5c.

         It did not concur with the questioned member costs, education awards, and
          accrued interest for the DHS member without a criminal history registry check. It
          will provide documentation demonstrating that the check was conducted to the
          Corporation.

         It did not concur with the questioned costs for the DHS staff site supervisors
          without documentation of National Service Criminal History Checks. It will
          provide documentation demonstrating that the checks were conducted to the
          Corporation.

Corrective Actions

         It discussed this issue with its Corporation program officer and updated its
          program directors manual.
                                             36
            All program directors attended a Corporation training event covering background
             checks in March 2012.

            Background checks will be discussed at its September 2012 program directors
             meeting.

Accountants’ Comments: We continue to make the recommendations stated above.
During resolution, the Corporation should ensure that the corrective actions implemented by
Oregon Volunteers are effective.

Finding 6.      Subgrantees did not comply with AmeriCorps requirements for NSOPR
                checks, did not demonstrate that NSOPR checks were conducted on
                members and grant-funded staff, and did not conduct NSOPR checks in
                a timely manner.

a. DHS conducted incomplete NSOPR checks and conducted late NSOPR checks. Details
   follow.

      We questioned DHS member costs and education awards for two sampled PY 2009-
       2010 members, because DHS did not perform nationwide (all state databases)
       NSOPR checks. At the time the checks were performed, the Maryland state registry
       was inoperative. It followed guidance from the Corporation’s Frequently Asked
       Questions National Service Criminal History Checks, Paragraph 4.6, What steps
       should I take if I discover that several States’ sex offender registry sites are
       inoperative when I am conducting the NSOPR check on an applicant? This
       document states that if a state’s registry is inoperative at the time a NSOPR check is
       conducted, it is a best practice, but not a requirement, for programs to recheck the
       NSOPR later.

       Failure to perform a nationwide NSOPR check on a member could result in
       participation by ineligible members who are potentially dangerous to individuals they
       are serving. We questioned $18,766 of member costs for two members (Member
       Nos.1 and 4) without nationwide NSOPR checks. Education awards of $9,450 for
       these two members are included in the questioned education awards in the member
       service hours finding (Finding 7a.)

      NSOPR checks were performed after members started service for all 11 sampled
       DHS members. Representatives from DHS did not know why NSOPR checks for
       these members were conducted after the members started service.

                                                                   Days to
                    Late NSOPR Checks                   DHS        Perform
                    PY 2009-2010                         5          15-99
                    PY 2010-2011                         6          31-37
                    Total                               11


       45 CFR § 2540.205 requires programs to maintain results of NSOPR checks unless
       prohibited by state law and to document in writing that results were considered when
       selecting members for the program. Additionally, according to Corporation
                                              37
       Enforcement of Criminal History Check Compliance, October 2011, Consequences,
       NSOPR, “Covered individuals cannot serve or work before the program completes
       the NSOPR”.

       The failure to conduct NSPOR checks before a member’s start date could result in
       participation by ineligible members who are potentially dangerous to individuals they
       are serving.

b. ARC conducted incomplete NSOPR checks, did not document procedures performed to
   ensure that a member was not a listed on the NSOPR, retained undated copies of
   NSOPR checks, and did not provide documentation to demonstrate that NSOPR checks
   were conducted for individuals in covered positions. Details follow.

      We questioned member costs, education awards, and accrued interest for two
       sampled PY 2009-2010 members, because ARC did not perform nationwide (all
       state databases) NSOPR checks. At the time the checks were performed, the
       Washington state registry was inoperative for one member, and the Washington and
       Arkansas state registries were inoperative for the second member. It also followed
       guidance from Paragraph 4.6 of the Corporation’s Frequently Asked Questions
       National Service Criminal History Checks document, which states that if a state’s
       registry is inoperative at the time a NSOPR check is conducted it is a best practice,
       but not a requirement, for programs to recheck the NSOPR at a later date.

       Failure to perform a nationwide NSOPR check on a member could result in
       participation by ineligible members who are potentially dangerous to individuals they
       are serving. Details of instances, questioned member costs, questioned education
       awards, and questioned accrued interest award follow:

                                      Questioned     Questioned     Questioned
                    NSOPR Checks       Member        Education       Accrued
            Site    Not Nationwide      Costs         Awards         Interest
            ARC           2            $22,477         $9,450         $2,050

       Member costs of $22,477, education awards of $9,450, and accrued interest awards
       of $2,050 (Member Nos. 14 and 15) are included in questioned member and
       education award costs related to third party-vendor checks (Finding 5a).

      We questioned claimed salary and benefit costs of $27,982 for one grant-funded
       ARC staff member charged to the grant before completion of the staff member’s
       NSOPR check. The NSOPR check this staff member was not completed in a timely
       manner. It was completed on November 16, 2011, at the end of the employee’s term
       of employment. ARC failed to document the initial NSOPR check and only retained
       documentation of the later check.

       45 CFR §2540.200 defines a “covered position” as an individual receiving a
       Corporation grant-funded salary or other remuneration. According to Corporation
       Enforcement of Criminal History Check Compliance, October 2011, Consequences,
       NSOPR, covered individuals cannot work before the program completes the
       NSOPR.


                                             38
      Questioned salary and benefit costs are included in questioned costs for third-party
      vendor checks (Finding 5a).

     The NSORP checks for two sampled PY 2009-2010 ARC members were undated.
      As a result, we could not verify that the checks were conducted before member start
      dates, as required by the Corporation. ARC representatives did not know why the
      checks for these members were undated.

      As previously stated, 45 CFR § 2540.205 requires grantees to maintain results of
      checks unless prohibited by state law and to document in writing that results were
      considered when selecting members for the program. Further, according to
      Corporation Enforcement of Criminal History Check Compliance, October 2011,
      Consequences, NSOPR, covered individuals cannot serve before the program
      completes the NSOPR.

      Without documentation of the date the NSOPR check was conducted, programs
      cannot demonstrate that the checks were conducted before the members started
      service.

     We questioned an education award of $1,000 for one ARRA member (Member No.
      23) whose NSOPR search results showed 54 sex offenders with the same or similar
      names. ARC did not document the procedures it performed to determine that the
      member was not one of the sex offenders appearing on the list. According to the
      Corporation’s Frequently Asked Questions National Service Criminal History Checks,
      Paragraph 4.4, What do I do if I find an individual listed on the NSOPR who has the
      same name as an applicant?, programs are required to conduct a more in-depth
      inquiry to determine if the individual who appears on the NSOPR is the applicant or
      merely someone with the same name.

      ARC representatives stated that when NSOPR offenders were found, they would
      review the picture and birth date of each individual listed and verify that the person
      was not the member applying for the position. It would then document its review by
      placing a check mark next to each individual verified, or it would write “ok” on the
      results page. Results provided for this member did not have any of the described
      markings.

c. NYC conducted incomplete NSOPR checks, conducted late NSOPR checks, retained
   undated copies of NSOPR checks, and did not provide documentation to demonstrate
   that NSOPR checks were conducted for individuals in covered positions. Details follow.

     We questioned member costs, education awards, and accrued interest for two
      sampled PY 2009-2010 members and one sampled PY 2010-2011 member,
      because NYC did not perform nationwide (all state databases) NSOPR checks. At
      the time the checks were performed, the Utah, South Carolina, and Louisiana state
      registries were inoperative for one member, the Nevada state registry was
      inoperative for the second member, and the Maryland state registry was inoperative
      for the third member. It also followed guidance from Paragraph 4.6 of the
      Corporation’s Frequently Asked Questions National Service Criminal History Checks
      document, which states that if a state’s registry is inoperative at the time a NSOPR
      check is conducted it is a best practice, but not a requirement, for programs to
      recheck the NSOPR at a later date.
                                            39
     Failure to perform a nationwide NSOPR check on a member could result in
     participation by ineligible members who are potentially dangerous to individuals they
     are serving. Details of instances, questioned member costs, questioned education
     awards, and questioned accrued interest award follow:

                               Questioned      Questioned    Questioned
             NSOPR Checks       Member         Education      Accrued
             Not Nationwide      Costs          Awards        Interest
                   3            $27,944          $11,488       $1,437

    Member costs of $2,889 ($27,944 - $25,055) and the education award of $2,038
    (Member No. 42) are questioned here. The remaining $25,055 of member costs,
    $9,450 of education awards, and $1,437 of accrued interest for Member Nos. 33 and
    38 are questioned for missing state criminal history checks (Finding 5b.).

   NSOPR checks for two sampled NYC members were performed after they started
    service. Representatives from NYC did not state why NSOPR checks for these
    members were conducted after the members started service.

                                                             Days to
               Late NSOPR Checks                  NYC        Perform
               PY 2009-2010                        1            2
               PY 2010-2011                        1            3
               Total                               2


    45 CFR § 2540.205 requires programs to maintain results of NSOPR checks unless
    prohibited by state law and to document in writing that results were considered when
    selecting members for the program. Additionally, according to Corporation
    Enforcement of Criminal History Check Compliance, October 2011, Consequences,
    NSOPR, covered individuals cannot serve before the program completes the
    NSOPR.

    The failure to conduct NSPOR checks before a member’s start date could result in
    participation by ineligible members who are potentially dangerous to individuals they
    are serving.

   The NSOPR check for the NYC employee was performed on August 10, 2011, but the
    employee’s hire date was May 31, 2011; the employee began charging time as match
    to the grant in June 2011. NYC representative did not know why the NSOPR check
    was conducted late for the grant-funded employee.

    45 CFR §2540.200 defines a “covered position” as an individual receiving a
    Corporation grant-funded salary or other remuneration. According to Corporation
    Enforcement of Criminal History Check Compliance, October 2011, Consequences,
    NSOPR, covered individuals cannot work before the program completes the NSOPR.

   The NSOPR checks provided for six sampled NYC members (four sampled PY
    2009-2010 and two sampled PY 2010-2011) were not dated. As a result, we could
    not verify that the checks were conducted before member start dates, as required by
                                          40
    the Corporation. NYC representatives did not know why the NSOPR checks for
    these members were undated.

    As previously stated, 45 CFR § 2540.205 requires grantees to maintain results of
    checks unless prohibited by state law and to document in writing that results were
    considered when selecting members for the program. Further, according to
    Corporation Enforcement of Criminal History Check Compliance, October 2011,
    Consequences, NSOPR, covered individuals cannot serve before the program
    completes the NSOPR.

    Without documentation of the date the NSOPR check was conducted, programs
    cannot demonstrate that the checks were conducted before the members started
    service.

   NYC did not provide documentation to support that one sampled PY 2009-2010
    member and one sampled PY 2010-2011 member received NSOPR checks.
    Returning members are required to have a new NSOPR check if their breaks
    between service periods are greater than 30 days. These members were returning
    members that had evidence of NSOPR checks in their files for the previous program
    year, but breaks between service periods were more than 30 days. NYC
    representatives did not know why NSOPR checks were not conducted at the
    beginning of the second year of service for these members.

                                                                     Days in
          Member                            Prior PY    Enrollment   between
           No.           PY       Status    Exit Date      Date      service
            37        2009-2010     FT       7/1/09       9/9/09        70
            40        2010-2011     FT       6/24/10     8/27/10        64

    As previously stated, 45 CFR §2540.203 requires individuals serving consecutive
    terms of service in a program with a service break of more than 30 days to receive
    an additional check. Member costs, education awards, and accrued interest for
    these members are questioned in missing state criminal history checks (Finding 5b).

   NYC did not provide documentation to support an NSOPR check for a staff member
    whose salary and benefits were claimed as match. The NSOPR check provided was
    conducted on January 1, 2008, although the employee’s most recent hire date was
    January 10, 2010, and the employee began charging time to the grant in July 2011.
    In addition, the NSOPR check provided was incomplete. The Nebraska registry was
    inoperative when the NSOPR check was conducted. NYC representatives stated
    that the staff member has had several terms of employment with NYC, but did not
    know why an NSOPR check was missing for the staff member.

    As previously stated, 45 CFR §2540.200 defines a “covered position” as an
    individual receiving a Corporation grant-funded living allowance, stipend, education
    award, salary, or other remuneration. Further, according to Corporation Enforcement
    of Criminal History Check Compliance, October 2011, Consequences, NSOPR,
    covered individuals cannot work before the program completes the NSOPR.




                                           41
Recommendations: We recommend that the Corporation:

   6a.    Revise the Frequently Asked Questions for National Service Criminal Checks
          document for compliance with the Federal regulation and require that complete
          NSOPR searches be conducted of all participating registries;

   6b.     Provide guidance to Oregon Volunteers to ensure that all of its subgrantees
           conduct and maintain documentation to support that NSOPR checks were
           conducted on individuals in covered positions, complete NSOPR checks before
           members start service or before claiming salaries and benefits of grant-funded
           staff members; and document procedures performed to verify that members are
           not individuals listed on the NSOPR results page;

   6c.     Verify that Oregon Volunteers has implemented effective NSOPR check
           procedures at all of its subgrantees;

   6d.     Disallow and, if already used, recover education awards and accrued interest
           awarded to members with questioned education awards;

   6e.     Calculate and recover the appropriate amount of disallowed costs based on our
           costs questioned and require Oregon Volunteers to adjust its FFRs for disallowed
           costs.

Oregon Volunteers Response: It did not concur with the majority of the findings and did
not concur with the questioned costs and education awards. It did not respond to the
recommendations. Its responses follow:

          It did not concur with the majority of the findings because they appeared to hold
           subgrantees to a higher standard than is required by the Corporation.
           Specifically, it did not concur with the findings concerning incomplete NSOPR
           checks. It provided technical assistance to subgrantees using the Corporation’s
           Frequently Asked Questions document as the basis for its guidance. It believed
           its programs conducted checks in good faith and used the best guidance
           available at the time of the checks.

          It concurred with the findings related to NSOPR checks that were not completed
           by subgrantees before the start of the member year. It will address this finding
           with subgrantees.

Accountants’ Comments: We continue to make the recommendations stated above.
During resolution, the Corporation should ensure that the corrective actions implemented by
Oregon Volunteers are effective.

We do not agree with Oregon Volunteers statement that the findings held the subgrantees to
a higher standard than is required by the Corporation. An incomplete NSOPR check does
not comply with Corporation regulations. Corporation regulations require programs to
perform a national sex offender check. A check that is missing states does not meet the
definition of a national check. Further, it is necessary to document the date the NSOPR
check was conducted because without the date, Oregon Volunteers cannot ensure that the
NSOPR check was conducted before the start of the member service year.

                                             42
Finding 7.      Subgrantees did not accurately record all member timesheet hours, did
                not have procedures to verify timesheet accuracy, and, in some
                instances, timesheets did not support member eligibility for education
                awards.

Timesheet hours were not always accurately recorded in the Portal, and we identified
weaknesses in how timesheets were prepared.

a. We questioned $23,625 of education awards for five DHS members whose timesheets
   did not support their eligibility for education awards. Details follow.

   Timesheet hours did not agree with hours certified in Portal for two sampled PY 2009-2010
   DHS members and did not support their eligibility for education awards. In addition, while
   reviewing spreadsheets provided by DHS to support compliance with Corporation training
   and fundraising requirements, we noted that hours reported for three non-sampled PY 2009-
   2010 members who were eligible for education awards were less than hours certified in the
   Portal. Therefore, we obtained the timesheets for these individuals and recalculated their
   service hours. As a result of our recalculation, timesheet hours for these members did not
   support eligibility for education awards.

   DHS did not have procedures to verify timesheet accuracy. Without procedures to verify
   timesheet accuracy, members could receive education awards to which they were not
   entitled. As a result, we questioned the education awards for the members whose
   timesheets did not support their eligibility for education awards.

                                               Hours                 Ed.
                        Member                                      Award
           PY            No.       Portal   Timesheet   Required   Amount
           2009-2010       1       1,708      1,527      1,700     $4,725
           2009-2010       4       1,700      1,698      1,700      4,725
           2009-2010      44       1,712      1,569      1,700      4,725
           2009-2010      45       1,712      1,687      1,700      4,725
           2009-2010      46       1,702      1,694      1,700      4,725

b. ARC member timesheets hours were not always accurately recorded in the Portal, and
   some timesheets and hours added to the timesheets were not certified by members.

      Timesheet hours did not agree with hours certified in the Portal for one sampled PY
       2009-2010 ARC member and one sampled PY 2010-2011 ARC member. ARC did
       not have procedures to verify timesheet accuracy. Without procedures to verify
       timesheet accuracy, members could receive education awards to which they are not
       entitled. These differences did not affect member eligibility for education awards.

      Timesheets for three ARC members showed hours not certified by the members.
       Details follow:

       o     The February 2010 timesheet for one PY 2009-2010 ARC member (Member No.
             15) had 179 hours type-printed on the timesheet. This total was crossed out and
             replaced with a handwritten total of 187 hours. ARC added 8 training hours to
             February 15, 2010, and placed an undated note in the member’s file stating that

                                              43
       the addition of hours had been verbally confirmed with the member. ARC did not
       require the member to submit a revised timesheet. After excluding the 8 hours
       added to the member‘s February 2010 timesheet, remaining hours did not qualify
       the member for an education award.

   o   One PY 2009-2010 ARC member (Member No. 16) did not sign the April 2010
       timesheet. ARC placed a handwritten note on the member’s timesheet stating
       that the member had verified service hours reported on the timesheet, but it did
       not require the member to submit a revised timesheet. After excluding the 158
       hours from the member‘s April 2010 timesheet, remaining hours did not qualify
       the member for an education award.

   o   One PY 2010-2011 ARC member (Member No. 29) did not sign May through
       August 2011 timesheets. According to a January 5, 2012, email from ARC to the
       member’s site supervisor, the member did not complete or sign the timesheets,
       because of unavailability when timesheets were due. ARC did not provide any
       documentation from the member to support that the member served the hours
       reported on the timesheets. After excluding the 415 hours from the member‘s
       May through August 2011 timesheets, remaining hours did not qualify the
       member for an education award.

   ARC did not have procedures to ensure that members signed all timesheets. As
   shown in the table below, we questioned education awards of $12,125 for the three
   members. These education awards were previously questioned for third-party
   vendor checks in Finding No. 5.

                                       Timesheet Hours                             Ed.
                     Member                                           Hours       Award
       PY             No.      Total      Unsigned      Adjusted     Required    Amount
       2009-2010       15      1,700         8           1,692        1,700      $4,725
       2009-2010       16      1,730        158          1,572        1,700       4,725
       2010-2011       29       918         353           565          900        2,675

c. We questioned an education award for one NYC member whose timesheets did not
   support the member’s eligibility for an education award. Details follow:

   Timesheet hours did not agree with hours certified in the Portal for two sampled PY
   2010-2011 NYC members. Hours supported by timesheets for one of these
   members did not support the member’s eligibility for an education award.

   NYC did not have procedures to verify timesheet accuracy. Without procedures to
   verify timesheet accuracy, members could receive education awards to which they
   are not entitled. As a result, we questioned the education award for the member
   whose timesheets did not support education award eligibility.

                                                Hours                    Ed.
                      Member                                            Award
         PY            No.       Portal    Timesheet      Required     Amount
         2010-2011      41       1,718       1,573         1,700        $5,350



                                           44
         2009 AmeriCorps Grant Provisions, Section IV. AmeriCorps Special Provisions,
         Subsection C.4. Timekeeping, requires grantees to keep time-and-attendance
         records for all AmeriCorps members to document their eligibility for in-service and
         post-service benefits. Time-and-attendance records must be signed and dated by
         both the member and an individual who supervises the member. Further, 45 CFR §
         2522.220(a), states that full-time members must complete at least 1,700 hours, and
         half-time members must complete at least 900 hours to be eligible for education
         awards.

d. We noted weaknesses in timekeeping procedures. A summary of timesheet
   discrepancies by subgrantee follows:

         Timesheet Discrepancies                        DHS          ARC         NYC
         Member and supervisor signature not dated       1            0           4
         Member signature not dated                      3            0           1
         Supervisor signature not dated                  5            0           0
         No supervisor signature                         1            1           1
         Signed prior to serving hours                   1            0          12
         Corrections not initialed                       2            3           4
         Pencil used                                     0            0           3

AmeriCorps requirements address timekeeping policy, but do not address specific timesheet
procedures. It is, however, good business practice to check the accuracy of hours recorded
on timesheets. As a result, accountability is maintained, and timesheets are consistent with
member and management intentions.

Recommendations: We recommend that the Corporation:

   7a.      Require Oregon Volunteers to strengthen its monitoring procedures to ensure
            that hours certified in the Portal for members at all of its subgrantees sites are
            supported by timesheets;

   7b.      Require Oregon Volunteers to strengthen its monitoring procedures to ensure
            that member timesheets at all of its subgrantees sites are signed by members
            and supervisors;

   7c       Require Oregon Volunteers to strengthen its monitoring procedures to ensure
            that all of its subgrantees maintain accurate timesheets and timesheets
            consistent with member and management intentions;

   7d.      Verify implementation of Oregon Volunteers’ strengthened monitoring procedures
            for member timesheets; and

   7e.      Disallow and, if already used, recover education awards made to members who
            did not serve the minimum required service hours.

Oregon Volunteers Response: It responses to the findings and questioned education
awards follow:




                                               45
Finding 7a.

         It did not concur with the $23,625 of questioned education awards for Member
          Nos. 1, 4, 44, 45, and 46. It will provide documentation demonstrating that the
          members completed the required number of service hours to the Corporation.

Finding 7b.

         It did not concur with the questioned education award of $4,725 for Member No.
          15. ARC’s timesheet has a section where the program director can sign and
          certify changes to the timesheet that have been discussed with both the member
          and the supervisor. The eight hours questioned were certified in that manner on
          the timesheet and a backup note was placed in the member file to support the
          change in hours.

         It did not concur with the questioned education award of $4,725 for Member No.
          16 and the questioned education award of $2,675 for Member No. 29. It
          provided guidance to ARC that when a member was not accessible for a
          timesheet that the signature of the site supervisor, countersigned by the program
          director was adequate to include the hours.

Finding 7c.

         It did not concur with the questioned education award of $5,350 for NYC Member
          No. 41. It will provide documentation demonstrating that the members completed
          the required number of service hours to the Corporation.

Corrective Actions:

         Beginning with PY 2012-2013, all AmeriCorps programs will be instructed on how
          to accurately account for member service hours.

         Its AmeriCorps Program Director’s Manual will be updated to include information
          regarding checking all timesheets for total member service hours during the exit
          process.

         Its site visit monitoring procedure will be expanded to include a verification of
          total service hours for prior year members.

Accountants Comments: We continue to make the recommendations stated above.
Responses to finding 7b. and corrective actions follow:


Finding 7b.

         We do not agree that Oregon Volunteers’ policy of allowing program directors to
          sign and certify changes to member timesheets without obtaining the
          corresponding member signatures is adequate documentation to support
          adjustments to member service hours. Without the corresponding member


                                             46
             certification, Oregon Volunteers subgrantees cannot ensure that the timesheets
             were consistent with member intentions.

            We do not agree that the timesheet and backup note placed in the file for
             Member No. 16 were adequate documentation to support the eight hours
             questioned. While the additional hours were certified by the program director,
             the hours were not certified by the member. In addition, while an undated note
             was placed in the member file stating that the member had served an additional
             eight hours by attending classes; ARC did not provide any documentation to
             support member attendance at the classes.

Corrective Actions:

            During resolution, the Corporation should ensure that the correction actions
             implemented by Oregon Volunteers are effective.

Finding 8.      Subgrantees did not comply with AmeriCorps requirements for member
                performance evaluations, contracts, and forms.

a. DHS, ARC, and NYC did not comply with AmeriCorps requirements for member
   performance evaluations.

      All three subgrantees could not demonstrate that some sampled members received
       end-of-term performance evaluations. In addition, end-of-term evaluations for some
       members did not indicate if they had completed the required number of service hours
       for education award eligibility. The numbers of instances for each noncompliance
       are shown below:

       Description                                   DHS          ARC           NYC
       PY 2009-2010
       End-of-term evaluation missing                 3             2            2
       End-of-term missing required hours             2             7            5
       ARRA
       End-of-term evaluation missing                 0             2            0
       End-of-term missing required hours             0             5            0
       PY 2010-2011
       End-of-term evaluation missing                 3             3            0
       End-of-term missing required hours             0             6            7
       Total
       End-of-term evaluation missing                 6             7             2
       End-of-term missing required hours             2            18            12


       45 CFR § 2522.220(d), Participant performance review, states that a participant is
       not eligible for a second or additional term of service and/or for an AmeriCorps
       education award without an end-of-term evaluation. It requires that the end-of-term
       performance evaluation assess if the participant completed the required number of
       hours to be eligible for the education award.

                                               47
       DHS and NYC representatives did not know why evaluations were not in files for
       certain members. ARC representatives stated that if a site supervisor did not
       complete a member evaluation, they would produce the final evaluation for the
       member, although they did not go onsite to observe the member or consult with the
       member’s supervisor.

       DHS, ARC, and NYC were unaware that end-of-term evaluations are required to
       include the final number of hours completed by members. End-of-term evaluations
       are required for all members and are necessary to ensure that members are eligible
       for additional service terms and education awards, and that grant objectives have
       been met.

      Two members did not have end-of-term evaluations: one sampled PY 2009-2010
       DHS member (Member No. 2) was a returning member from PY 2008-2009, and one
       sampled PY 2009-2010 member (Member No. 3) served subsequent terms in PYs
       2010-2011 and 2011-2012. We questioned Federal member costs, education
       awards, accrued interest, and childcare expenses for these members.

                        Questioned    Questioned      Questioned      Questioned
                         Member       Education        Accrued        Child Care
        Member No.        Costs         Award          Interest        Expenses
              2          $10,273        $4,725            $55               $0
              3           10,803         5,350            911             348
        Total            $21,076       $10,075           $966            $348


      We identified other issues with end-of-term evaluations. The number of instances for
       each situation is shown in the table below.

             Description                                   ARC          NYC
             Supervisor signature not dated                 0            1
             Signatures missing                             1            1
             Completed after member exited program,
             not signed by the member                       4             0

       It is good business practice to ensure that members and supervisors sign and date
       end-of term evaluations and complete evaluations before members exit the program.
       As a result, accountability is maintained, and evaluations are consistent with member
       and management intentions.

b. Two NYC member contracts were missing pages, and two ARC member contracts were
   missing signatures.

      Member contracts for one sampled PY 2009-2010 NYC member and one sampled PY
       2010-2011 NYC member did not include all pages included in NYC’s standard
       member contract. These pages contained acceptable conduct, requirements under
       the Drug Free Workplace Act, suspension and termination of rules, specific
       circumstances for which a member may be released for cause, grievance procedures,
       and other applicable program requirements. As a result, we could not ensure that the
       contract signed by these members included the pages containing these provisions or
       that members were fully aware of their rights and responsibilities as required by 2009
                                             48
         AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
         D.2, Member Contracts.

        Member signatures were undated on the member contracts for two sampled PY 2009-
         2010 ARC members. As a result, we could not verify that the contracts were signed
         before the members started serving hours, as required by 2009 AmeriCorps Grant
         Provisions, Section IV, AmeriCorps Special Provisions, Subsection D.2, Member
         Contracts.

c. Files for three sampled PY 2009-2010 DHS members and six sampled PY 2010-2011
   DHS members did not have hard copies of exit forms. In addition, the exit form for one
   sampled PY 2009-2010 DHS member was not signed by the member’s supervisor.
   MyAmeriCorps Frequently Asked Questions (dated October 2, 2009), Miscellaneous,
   Are we still required to retain paper copies of the enrollment and exit form?, states that if
   both the member and program certify an exit form in the Portal, the program is not
   required to retain paper copies of the exit form. Thus, the Portal serves as the system of
   record for enrollment and exit forms. Without a hard copy of the exit form or a
   supervisor signature on the exit form, we were unable to verify that the education award
   eligibility certification, which is an element of the exit form, was complete for the nine
   sampled members.

Recommendations: We recommend that the Corporation:

   8a.       Require Oregon Volunteers to strengthen its training and monitoring procedures
             to ensure that end-of-term evaluations are completed for all members at all of its
             subgrantee sites;

   8b.       Require Oregon Volunteers to strengthen its training and monitoring procedures
             to ensure that end-of-term evaluations used by all of its subgrantees include the
             requirement to assess whether the member has completed the required number
             of hours to be eligible for the education award;

   8c.       Require Oregon Volunteers to strengthen its training and monitoring procedures
             to ensure that members and supervisors sign end-of-term evaluations, date their
             signatures, and complete them before members exit the program;

   8d.       Verify implementation of Oregon Volunteers’ procedures for member evaluations;

   8e.       Require Oregon Volunteers to strengthen its policies and procedures to ensure
             that members sign complete copies of member contracts that include all required
             stipulations prior to starting service;

   8f.       Verify implementation of Oregon Volunteers’ strengthened policies and
             procedures for its subgrantees member contracts;

   8g.       Revise its Frequently Asked Questions document to ensure that all grantees and
             subgrantees retain hard copies of member exit forms signed by supervisors until
             the date submitted is shown in the Portal;

   8h.       Disallow and recover the appropriate amount of education awards, accrued
             interest, and childcare benefits based on our questioned amounts;
                                               49
   8i.       Calculate and recover the appropriate amount of disallowed costs based on our
             costs questioned; and require Oregon Volunteers to adjust its FFRs for the
             disallowed costs.

Oregon Volunteers Response: Its responses follow:

            Generally, it concurred with the findings. It believed that its desk and site visit
             monitoring tools were thorough and complete, but it needed to enhance its desk
             monitoring of all program documents and forms and to revise its onsite
             monitoring tool to ensure that availability of signed contracts and performance
             evaluations.

            It did not concur with the questioned costs, education awards, accrued interest,
             and childcare expenses for the two DHS members without end-of-term
             performance evaluations. It will provide documentation demonstrating that
             evaluations were conducted to the Corporation.

            As a corrective action, it will update its program directors manual to include
             additional information on checking all timesheets for total member service hours
             during the exit process and providing documentation of complete signed
             evaluations. The changes will be discussed at a program directors meeting.

Accountants’ Comments: During resolution, the Corporation should ensure that the
correction actions implemented by Oregon Volunteers are effective.

Finding 9.      Oregon Volunteers did not follow its procedures to obtain and
                review subgrantee OMB Circular A-133 audit reports, as required by
                its procedures.

As described the following paragraphs, Oregon Volunteers did not comply with OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, Subpart
D.400 (d), Pass-through entity responsibilities, which requires it to ensure that subgrantees
undergo audits that meet requirements of this circular. In addition, Oregon Volunteers did
not comply with its internal monitoring procedures.

According to the Oregon Volunteers fiscal manual for PY 2011-2012, it has full responsibility
for monitoring fiscal and programmatic actions of its subgrantees, including monitoring
subgrantee compliance with audit requirements. When performing this monitoring, it is
required to collect and maintain copies of OMB Circular A-133 audit reports and
management letters as well as track scheduled audits for all subgrantees and ensure that
they do not fall behind on receiving them. While Oregon Volunteers performed some of
these procedures, it relied on the Financial Services Division at OCHS, to monitor
subgrantee compliance with audit requirements, review subgrantee audit reports and
management letters, and follow-up on deficiencies identified in the audit reports and
management letters.

During planning, we requested copies of subgrantee OMB Circular A-133 audit reports and
management letters for the two most recent fiscal years as well as documentation of reviews
performed on the audit reports and management letters. Because Oregon Volunteers and
OCHS did not have a procedure for tracking subgrantee audits, they did not know which
                                                50
subgrantees were required to have OMB Circular A-133 audits. Additionally, they did not
know which subgrantees had management letters; dates subgrantees submitted their audit
reports to Oregon Volunteers, OCHS, or another agency; dates reports were reviewed; or
the status of any deficiencies identified in the reports and management letters.

While Oregon Volunteers relied on the Financial Services Division at OCHS to ensure
subgrantee compliance with audit requirements, OCHS only ensured compliance with audit
requirements for some of the subgrantees. In Oregon, the state agency that provides a
subgrantee with the most funding is responsible for reviewing OMB Circular A-133 reports
for that subgrantee. As a result, at least four other state agencies in addition to OCHS were
responsible for reviewing particular subgrantee audit reports. OCHS did not have a
procedure for obtaining subgrantee audits from the other agencies and did not begin to
request copies of the audit reports and review documentation until the week of our planning
visit.

 A similar subgrantee monitoring issue was identified in the prior OIG audit report conducted
on Oregon Volunteers (OIG Report No. 01-04). In its response to that audit report, Oregon
Volunteers stated that it had fully implemented a database that tracked subgrantee OMB
Circular A-133 reports. It now states that it no longer uses this database, because OCHS
stated that it was unnecessary to do so, because OCHS was responsible for obtaining and
reviewing these reports. Representatives from Oregon Volunteers agreed that the current
process for obtaining and reviewing these reports had created a structural defect in its ability
to meet its responsibilities for monitoring subgrantee compliance.

Recommendations: We recommend that the Corporation:

   9a.     Require Oregon Volunteers to develop and implement procedures for
           documenting subgrantee audit report and management letter submissions,
           Oregon Volunteers or fiscal-agent reviews of subgrantee audit reports and
           management letters, status of findings identified those reports; and issues
           identified during reviews of reports; and

   9b.     Verify implementation of Oregon Volunteers procedures for subgrantee audit
           reports and management letters.

Oregon Volunteers Response: It concurred in part to the findings. Its responses to the
finding and corrective actions follow:

          The Statewide Accounting and Reporting System (SARS) assigns responsibility
           for review of subgrantee OMB Circular A-133 reports.

          In 2006, the OCHS Chief Financial Officer required elimination of Oregon
           Volunteers database that tracked subgrantee OMB Circular A-133 reports
           because the system did not comply with the state accounting policy.

          As a program of a state agency, it did not have any authority to follow-up directly
           with audited subgrantee organizations.

          As a corrective action, it will return to its policy requiring all subgrantees to
           provide a list of Catalog of Federal Domestic Assistance numbers for other

                                               51
          Federal grants received by the subgrantees. The list will be shared with the
          OCHS Financial Services Division staff who will be responsible for ensuring that
          the Secretary of State Audit Division provides OMB Circular A-133 review reports
          for any subgrantees monitored by other state agencies. The staff will also be
          responsible for sharing the subgrantee audit reports with the Oregon Volunteers
          staff.

          For subgrantees that receive direct Federal funding at a level requiring an OMB
          Circular A-133 audit but do not appear in the SARS system, Oregon Volunteers
          will work with OCHS Financial Services Division staff and ensure that a review is
          conducted using the same monitoring tools used by state agencies for all other
          reviews.

Accountants’ Comments: Responses to the finding and corrective actions follow:

         We do not agree with Oregon Volunteers’ statement that as a program within
          OCHS that it did not have the authority to follow-up directly with subgrantees
          about whether they had received OMB Circular A-133 audit reports. While
          Oregon Volunteers stated it did not have this authority, determining whether a
          subgrantee had an OMB Circular A-133 audit was included as a step on “Risk
          Assessment Review Form” which was included in its PY 2011-2012 manual for
          program directors. It was also included as a step in its “Financial Compliance
          Review Instrument” which was completed during site visits. Finally, as discussed
          in the findings, its fiscal manual for PY 2011-2012 stated that it had full
          reasonability for monitoring subgrantee compliance with audit requirements.

         During resolution, the Corporation should ensure that the correction actions
          implemented by Oregon Volunteers are effective. In addition, it should ensure
          that the procedures described by Oregon Volunteers in its fiscal and program
          manuals accurately describe its current procedures for obtaining and reviewing
          subgrantee audit reports.




                                            52
               APPENDIX A

Oregon Volunteers Response to Draft Report
....----......
oregonvolunteers!                                            PH (503) 725·5903        PO Bo, 751·esc
                 ~                                           " (503) 725·8335         PMlond, OR 97207
                                                             TF   (888) 353-4.83      633 SW Montgomery SUIte 210
                                                             wwworegonyolunlee~_org   Portland, OR 9720 I




   28 June, 2012

   Mr. Stuart Axenfeld
   Assistant Inspector General for Audit
   Corporation for National and Community Service
   1201 New York Avenue NW, Suite 830
   Washington , DC 20525


   Dear Mr. Axenfeld,

   Thank you for the opportunity to respond to the Office of Inspector General (OIG) draft
   audit report. We appreciate the assistance provided by Rick Samson , Audit Manager, in
   your office during the audit process.

   Enclosed is our response to the OIG RE1POrt for the Agreed·Upon Procedures for
   Corporation Grants Awarded to Oregon Volunteers. As detailed in our document, we
   have provided additional information in response to a number of the findings, and noted
   those findings in which more information will be forthcoming .

   We have also developed corrective actions in response to findings where, as a result of
   the audit, we recognize the need to change or enhance existing policies and procedures
   to further strengthen our program administration.

   Please do not hesitate to contact me if additional information is necessary.


   Sincerely,



  . Uf;;c;,~ . ~i>-t..-¥
 UsenA. Joy
  Executive Director


   IIcc: Margaret Van Vliet, Oregon Housing and Community Services
                                   Finding 1.
Oregon Volunteers did not ensure that claimed Federal and match costs were
adequately supported, compliant with applicable regulations, and properly
calculated.

We do not concur with questioned $2,500 for the Take Care of Oregon mini-grant award.
Expense documentation, along with the final report required by the fixed price mini-grant award ,
will be submitted to CNCS

We do not concur with questioned $49,115 for indirect costs charged to commission
operational grants (Administration , PDAT and Disability Inclusion .) As noted by the auditor,
the Commission received permission from the Corporation Grants Office to include these costs
in annual applications for each of the three grants. Since the cells for indirect costs are locked in
the PDAT and Disability Inclusion application budget narratives, we were instructed to show
them in "Other Support Costs" - Category J , a practice we have followed since the e-grants
application system was created . In addition to the application , we also annually submit a copy
of the PSU agreement that designates the % that will be charged to each grant, as well as the
% that will be donated for each grant (see Finding 1.c)

We do not concur with questioned $54,586 of excess PSU indirect fees provided as
match to Oregon Volunteers.
The rate used was in the contract between Portland State University and OHCS, which was
submitted annually for CNCS review, along with the PSU NICRA, which clearly spelled the
category under which the calculations in the application were established.

Furthermore, PSU provided the following clarification :
       "A t Portland State University there is not a direct correlation between the Sponsored
       Community Service program code used for the Oregon Volunteers Commission awards
       and the "Other Sponsored Activity" rate from our F&A rate agreement. We have
       historically applied our research rate to sponsored projects unless they are primarily
       instructional in nature, when we would apply our much higher instructional F&A rate. The
       use of the research rate to calculate PSU's F&A contribution to the CNCS awards is
       consistent with our costing practices. However, in the future we will begin to utilize our
       other sponsored activity rate for projects such as these and have used this rate in the
       current CNCS award for Oregon Volunteers."

It should be noted that the new contract between Portland State University and OHCS clearly
delineates the rate change to the 31 per cent allocated for sponsored projects. The 2012
budgets submitted to CNCS used the lower rate for this year and forward .

We do not concur with questioned $73,466 in Oregon Volunteers match expenses . We
acknowledge that it had been our practice to record program income at the time income was
received , rather than as it was expended. As a result of that practice, at the time of the onsite
visit, the income log was provided to the auditors and the situation was discussed briefly.
However, auditors did not request backup for actual program income expenditures, either during


                                                Page 1
                                 Oregon Volunteers OIG Audi l Response
the site visit or in response to our inquiries about other documentation that they wanted during
the post visit period . Oregon Volunteers will provide CNCS with backup exceeding the
questioned match costs.

Corrective Action: Oregon Volunteers has changed our internal financial policies to track
program income only as it is expended.




                                    Finding 2.
Subgrantees did not ensure that claimed Federal costs were adequately
supported, compliant with applicable regulations, and properly calculated.

DEPARTMENT OF HUMAN SERVICES:
We do not concur with the questioned $1,188 of DHS Federal other direct costs not
adequately supported. Documentation for all of these expenditures is being provided to
CNCS.

AMERICAN RED CROSS:
We do not concur with the questioned $7,560 for site placement rental costs. This finding
includes service site costs from a combination of Red Cross chapters across the state AND
from local community based organization sponsors. Documentation of space costs provided to
AmeriCorps members by both internal (Red Cross chapters) and external (community-based
organizations) placements were collected at the program level through a certification process
that did not include copies of local lease, rental, or space allocation agreements. We will provide
to CNCS copies of lease/rental/space allocation documents that exceed the questioned amount.
The program has changed its policies for the coming year and will require copies of lease/rental
documents from its placement sites.

We do concur with the questioned $1,740 for member disaster training. This charge is
unsupported for the period under review. It should be noted that beginning with the FY 2011-
2012 program year, the program no longer includes disaster-training costs in its budget.

We do not concur with the questioned $269 for staff office space. Documentation for
internal rent allocation is being provided to CNCS.

We do not concur with the questioned $3,245 for office supplies. Oregon Volunteers allows
its programs to purchase supplies for subsequent grant years if reasonable . All supplies were
for staff members who continue to work on a program year even after members exit. The
program contacted Oregon Volunteers to arrange for this purchase beforehand and was given
permission. Further, per CNCS guidelines on budget adjustments, Oregon Volunteers allows
programs to shift budget expenditures up to the (commission-level) allowable 10% aggregate.
Program was within these figures in exceeding their budget for supplies.




                                               Page 2
                                Oregon Volunteers OIG Audit Response
We do not concur with the questioned $1,011 for member training materials. Oregon
Volunteers allows its programs to purchase supplies for subsequent grant years if reasonable ,
particularly for member recruitment and member training , because such expenses often must
occur prior to member service start dates.

We do concur with the questioned $38 for staff travel. It should be noted that the American
Red Cross now has an online travel system that will ensure that program staff stay within OAM
rates in the future .

We do not concur with the questioned $250 in excess federal administrative costs.
Oregon Volunteers provided guidance to the program about making adjustments between
CNCS and Grantee portion of expenses. Under our guidance the program was allowed to align
the total actual year-to-date percentages with match budgeted percentages . The general
accounting policy of the program is to make such adjustments in the Member Living Allowance
line item . In February, 2010 a $250 adjustment was made on the 09-10 ARRA report; however,
this adjustment was made on the incorrect line of the report worksheet. As a result, the
Administrative Cost line item was in excess of the 5.26% allowed. If the adjustment had made
on the Member Living Allowance line according to policy, the program would have received
$263.15 ($250.00 plus $1 3. 15 . the 5.26% administrative cost allowed). This is not an
unallowable expense, just a mis-posting that was not identified prior to the end of the program
year.

NORTHWEST YOUTH CORPS:
We concur, in part, with the questioned $40 identified as garden supplies, but actually
associated with a member field trip. The program has received oral confirmation of the
charge , and is working to obtain supplemental written documentation to submit to CNCS .

We do not concur with the questioned $ 200 for a member training retreat security
deposit. After the conclusion of the onsite audit, the program received the $200 security
deposit refund in March, 2012. It was credited against PY 2010-11 in the periodic expense
report submitted in March 2012 and was included in the period-ending March 31 , 2012 FFR
submitted to CNCS.

We concur, in part, with the questioned $281 for vehicle costs . The program has provided
supplemental information on their procedures for documenting vehicle costs that will be
forwarded to CNCS.



                                    Finding 3.
Subgrantees did not ensure that claimed match costs were adequately supported,
compliant with applicable regulations, and properly calculated.

We concur, in part, with this finding . Several elements of the identified match issues directly
correlate to questioned costs in Findings 2 & 4, where comments have been included , as
appropriate.

                                              Page 3
                               Oregon Volunteers O IG Audit Response
The Oregon Volunteers AmeriCorps*State Fiscal Manual currently provides instruction on, and
sample forms for, calculation and recording of in-kind support, but as a result of this audit, we
recognize the need to expand our current practice.

Corrective Action: The Oregon Volunteers AmeriCorps*State Fiscal Manual will be
revised to provide specific requirements for documentation of in-kind support claimed as
match on program budgets and will strengthen our program financial monitoring system
to include expanded review of in-kind documents. We will also focus our September,
2012 Program Directors meeting agenda on a Fiscal and Program Administration Review,
covering changed and enhanced policies and procedures resulting from this audit.



                                  Finding 4.
Subgrantees timekeeping systems did not comply with Federal and state
requirements, and subgrantees did not ensure the allowability of claimed site-
supervisor labor costs.

We concur, in part, with the elements of this finding related to match documentation.
Several elements of the identified match issues directly correlate to our response to Finding 3.

The Oregon Volunteers AmeriCorps*State Fiscal Manual currently provides instruction on and
sample forms for calculation and recording of in-kind support, but as a result of this audit, we
recognize the need to expand our current practice.

DEPARTMENT OF HUMAN SERVICES:
We do not concur with the questioned costs of $ 4,188 for salary and benefits. Signed
timesheets have been obtained and will be forwarded to CNCS.

Corrective Action: The Oregon Volunteers AmeriCorps*State Fiscal Manual will be
revised to provide specific requirements for documentation of in-kind support claimed as
match on program budgets and provide sample time and space tracking documents for
program use. We will enhance our program financial monitoring system to include
expanded review of in -kind documents. We will also focus our September, 2012 Program
Directors meeting agenda on a Fiscal and Program Administration Review, covering
changed and enhanced policies and procedures resulting from this audit.



                                  Finding 5.
Subgrantees did not comply with AmeriCorps requirements for state criminal
history checks and did not demonstrate that such checks were conducted on
members and grant-funded staff.

In general, we do not concur with these findings. During the program years that were
audited there was conflicting information available from CNCS regarding the use of third-party



                                               Page4
                                Oregon Volunteers OIG Audit Response
vendors to conduct criminal history checks . Now that this regulation has been more clearly
defined by CNCS, all OV programs are compliant.

AMERICAN RED CROSS:
We do not concur with the questioned $ 287,543 for charges directly related to third party
criminal history check vendors for American Red Cross members and staff. The
Commission's guidance to programs in the portfolio was to get an emailed confirmation from the
third-party vendor that it would meet AmeriCorps' guidelines for background checks, and to put
that confirmation in the member program files. In 09-10, the program followed this guidance,
using MyBackgroundCheck.com (the same online system used by Red Cross nationally for
background checks for both volunteers and staff). In 10-11, American Red Cross used Pre-
Employ.com (which is a branch of the same company used the year before) for its background
checks . The program emailed the company to give them the most recent AmeriCorps
guidelines it would need to meet. They received an email response stating the current package
would not meet the newest requirements, but that the company could set up a package that
would . Commission approved the package. [Note: in 11-12, program continued to use the Pre-
Employ.com online background check for covering the state background check for members
who were residents of a state outside of Oregon; by 11-12, program was using a Federal FBI
Fingerprint background check , as well as a check from the Official Oregon State Repository.]

After the IG auditors noted a concern with Pre-Employ.com 's checks , program informed the
Commission immediately and then did new state background checks for those members who
were residents of a state outside of Oregon, using AmeriCorps' official repositories for those
states. This updated process will continue to be used moving forward .

NORTHWEST YOUTH CORPS:
We partially concur with the questioned $61,247 for charges related to third-party
criminal history checks after the program received notification from CNCS that their ASP
request had been declined. We believe that the program acted in good faith at a time when the
newly implemented CNCS protocols for criminal history background checks were more fluid
than they are currently. As a result of the fluidity, the commission staff did their best to keep
programs updated with changed requirements, but believe that the system was still in
development during the period covered by this audit, and that the developmental status of the
requirements should be considered when reviewing these findings.

We partially concur with the questioned $20,829 for missing criminal history checks for
members serving a second year following a 30-day+ break in service, and for a grant-funded
staff member whose background check was not conducted in a timely manner. We assert that
the commission staff' gave its best efforts interpreting the fluid guidance available in the early
stages of implementation. In addition , the program has strengthened its policies regarding
background checks , and has revised its policies to insure that staff background check timelines
meet federal criterion .




                                               Page 5
                                Oregon Volunteers OIG Audit Response
DEPARTMENT OF HUMAN SERVICES:
We do not concur with questioned $ 18,742 for lack of documentation of a member
background check.
Documentation demonstrating that the appropriate member criminal history check was
conducted is being provided to CNCS.

We do not concur with questioned costs of $4,188 for lack of documentation of program
staff background checks.
Documentation demonstrating that the appropriate staff criminal history checks were conducted
is being provided to CNCS.

Corrective Action: This issue was discussed at length during 2012 programmatic site
visits conducted by the OV AmeriCorps Program Officer. Also, the OV AmeriCorps'State
Program Directors Manual has been updated to include this information. Lastly, all
program directors from programs included in the OV AmeriCorps portfolio participated in
a two-hour training on this topic conducted by CNCS officials during the Northwest
Network training event that occurred at Portland State University on March 27, 28, and
29, 2012.

AmeriCorps program staff members in the Oregon Volunteers program portfolio have
now been thoroughly trained to understand every nuance of when and how to conduct
each facet of the AmeriCorps criminal history check requirements (FBI fingerprint based
check, state checks, NSOPR) and the unique timing of each.

This topic will also be included in our September, 2012 Program Director's meeting
agenda on a Fiscal and Program Administration Review, which will cover changed and
enhanced policies and procedures resulting from this audit.



                                   Finding 6.
Subgrantees did not comply with AmeriCorps requirements for NSOPR checks,
did not demonstrate that NSOPR checks were conducted on members and grant-
funded staff, and did not conduct NSOPR checks in a timely manner.

We do not concur with the majority of these findings , since they appear to hold programs to
a higher standard than that required by CNCS with reference to repeat attempts to complete
NSOPR checks for states that are not available at the time of the program check . We provide
technical assistance to programs using the CNCS FAQs as the basis for our guidance. In
general we believe that each program in the portfolio conducts checks in good faith and
according to guidance available at the time. However, we do concur that in instances in which
NSOPR checks are not completed prior to the start of the member year there is a serious
compliance issue that we will continue to address through training and technical assistance, as
well as site visits and monitoring activities.



                                              Page 6
                               Oregon Volunteers OIG Audit Response
                                   Finding 7.
Subgrantees did not accurately record all member timesheet hours, did not have
procedures to verify member timesheet accuracy, and, in some instances,
member timesheets did not support member eligibility for education awards.

DEPARTMENT OF HUMAN SERVICES:
We do not concur with questioned $4,725 for Department of Human Services Member 1.
Documentation demonstrating that the member in question did complete the required number of
service hours is being provided to CNCS.

We do not concur with questioned $4,725 for Department of Human Services Member 44.
Documentation demonstrating that the member in question did complete the required number of
service hours is being provided to CNCS.

We partially concur with questioned $ 14,175 for Department of Human Services
Members4, 45 and 46. Additional documentation regarding the total hours served for Members
4, 45, and 46 is being gathered and will be submitted to CNCS.

AMERICAN RED CROSS:
We do not concur with questioned $4,725 for American Red Cross Member 15. The
program timesheet provides a section where the program director can sign and certify changes
to the timesheet that have been discussed with both the member and the supervisor. The eight
hours were certified in that manner on the timesheet, with a backup note in the member file to
annotate the Program Director's signature on the timesheet.

We do not concur with questioned $4,725 for American Red Cross Member 16. In thi s
instance, Commission provided guidance to program that when a member signature was not
accessible for the timesheet that the signature of the site supervisor, countersigned by the
program director, was adequate to document the hours.

We do not concur with questioned $4,725 for American Red Cross Member 29 .
Commission provided guidance to program that when a member signature was not accessible
for a timesheet that the signature of the site supervisor, countersigned by the program director,
was adequate to count the hours.

NORTHWEST YOUTH CORPS:
 We do not concur with questioned $5,350 for NYC member 41 . At the time of the audit, the
member file contained a "corrected " timesheet for the month that only showed corrected hours
for two of the twenty-two days in the month. We will submit to CNCS documentation that shows
the member served more than 1700 hours in total.

Corrective Action : Beginning with the 2012-2013 program year all Oregon AmeriCorps
programs will be instructed on how to accurately account for member service hours
during site visits and quarterly Program Directors Meetings, including the September,
2012 Program Directors meeting agenda focused on a Fiscal and Administration Review,
covering changed and enhanced policies and procedures resulting from this audit.



                                                Page 7
                                Oregon Vo lunteers OIG Audit Response
Additionally , the OV AmeriCorps Program Director's Manual will be updated to include
information regarding checking all timesheets for total member service hours during the
exit process, and Oregon Volunteers Site Visit Monitoring Protocol will be expanded to
include verification of total hours in review of prior year member files .



                                   Finding 8.
Subgrantees did not comply with AmeriCorps requirements for member
performance evaluations, contracts, and forms.
In general, we concur with this finding , and commit to strengthening program practices in
conducting and documenting performance evaluations, insuring thorough completion of member
contracts , and adequate use of appropriate forms. Although we believe that our desk and site
visit monitoring tools are thorough and complete, it is evident that we need to further enhance
our desk monitoring of all program documents and forms , and to further revise our member file
on site monitoring tool to insure availability of signed contracts and performance evaluations.

DEPARTMEN:r OF HUMAN SERVICES:
We do not concur in with questioned $ 17,142 for missing member evaluations.
Documentation demonstrating that member evaluations were conducted is being provided to
CNCS.

CORRECTIVE ACTION : the OV AmeriCorps' State Program Director's Manual will be
updated to include additional information on checking all timesheets for total member
service hours during the exit process, and providing documentation of complete
documentation of signed evaluations. The changes will be included in the September,
2012 Program Director's meeting agenda on a Fiscal and Administration Review,
covering changed and enhanced policies and procedures resulting from this audit.



                                    Finding 9.
Oregon Volunteers did not follow its procedures to obtain and review subgrantee
OMB Circular A-133 audit reports.

We concur, in part, with the finding. First, we note that Oregon Housing and Community
Services (OHCS) is not our fiscal agent. We are established in statute as a program of Oregon
Housing and Community Services, rather than designation of OHCS as a fiscal agent. As a
program of the department. Oregon Volunteers falls under all of the agency and state policies
and procedures.
As noted in the report, the State of Oregon Department of Administrative Services Oregon
Accounting Manual Federal Compliance Policy 30.30.00 PO assigns responsibility for review of
A-1 33 audits through the Statewide Accounting and Reporting Services (SARS). The policies
further delineate agency responsibility:
.105 Based on listings prepared by SARS, IIle state agency tllat distributes th e largest amount of funds to
any subrecipient shall be th e responsib le audit agency for the purpose of subrecipient monitoring by the
State under OMB Circular A-133.


                                                  Page 8
                                   Oregon Volunteers D IG Audit Response
.106 As part of the annual statewide single aue/it, the Secretary of State Audits Division is responsible for
examining the subrecipient monitoring conducted by audit agencies.

. 107 The audit agency is responsible for monitoring state compliance with requirements for second level
subrecipient review. The State's direct subrecipients must monitor federal financial assistance passed
tllrough to subrecipients. The audit agency must assure tllat assigned subrecipients monitor audits and
expenditures relating to any second level subr€!cipients. Second level sub recipients are those local
governments and non-profit organizations that receive federal fin ancial assistance from a local
government or non-profit organization receivinu federal financial assistance directly from a state agency.

. 108 Audit agencies will retain al/ subrecipient audit reports and associated checklists and workpapers for
a minimum of three years from the date of the audit report. Longer retention periods may be necessary
when notified in writing by the federal agency providing the financial assistance.


As noted in the reference to OIG Report 01-04, Oregon Volunteers developed and maintained
an internal sub-recipient A-133 review system from 2000 through 2006. In 2006 the Oregon
Housing and Community Services (O HCS) CFO, who was not aware of the OV practice ,
requ ired elimination of the internal program-level process that we had developed. The required
elim ination of the program level practice was made because Oregon Volunteers' efforts were
not in compliance with state accounting policy. As the program of a state agency, OV did not
have any authority to follow-up directly with audited sub-recipient organizations.

Corrective Action : Oregon Volunteers will return to its policy requiring all sub-recipient
programs to provide a list of CFDAs for other federal grants received by the agency. The
list will be shared with OHCS Finance sltaff who will be responsible for insuring that the
Secretary of State Audit Division provides A-133 review reports for any Oregon
Volunteers sub-recipients monitored by other state agencies to OHCS, and for sharing
those reports with Oregon Volunteers Finance and AmeriCorps Program staff.

In the rare instance when an Oregon Volunteers ' sub-recipient receives direct federal
funding at a level that would trigger the requirement for an A-133 audit, but does not then
appear in the SARS system for assignment to a state agency, Oregon Volunteers will
work directly with OHCS Finance staff tlO insure that the review is conducted using the
same state monitoring tools used for aU other A-133 audit reviews by state agencies.




                                                   Page 9
                                    Oregon Volunteers OIG Aud it Response
                              APPENDIX B

Corporation for National and Community Service’s Response to Draft Report
                              NATIONAL &
                              COMMUNITY
                              SERVICEfU'C

To:

From:

Cc:           Dougla         , Acting CFO
              Valerie Green, General Counsel
              Claire Moreno, Senior Grants Officer for Policy & Audit

Date:         June 27, 2012

Subject:      Response to OIG Draft of Agreed-Upon Procedures for Corporation
              For National and Community Service Grants Awarded to
              Oregon Volunteers


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to Oregon Volunteers. We will work with the grantee to
develop corrective actions. We will respond to all findings and recommendations in our
management decision when the audit working papers are provided and the final audit is
issued.
